<html>
<title> - AFGHANISTAN POLICY AT THE CROSSROADS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  AFGHANISTAN POLICY AT THE CROSSROADS

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 15, 2009

                               __________

                           Serial No. 111-54

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
52-853                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
            David S. Abramowitz, Chief Counsel deg.<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     David Killion, Senior Professional Staff Member deg.<greek-l>
        James Ritchotte, Professional Staff Member deg.<greek-l>
         Michael Beard, Professional Staff Member deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
         Peter Quilter, Professional Staff Member deg.<greek-l>
                Daniel Silverberg, Counsel deg.<greek-l>
     Brent Woolfork, Junior Professional Staff Member deg.<greek-l>
         Shanna Winters, Senior Policy Advisor and Counsel deg.
           Jasmeet Ahuja, Professional Staff Member<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Steve Coll, President, New America Foundation................    11
J. Alexander Thier, J.D., Director for Afghanistan and Pakistan, 
  United States Institute of Peace...............................    24
Frederick W. Kagan, Ph.D., Resident Scholar, American Enterprise 
  Institute......................................................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Steve Coll: Prepared statement...............................    14
J. Alexander Thier, J.D.: Prepared statement.....................    27
Frederick W. Kagan, Ph.D.: Prepared statement....................    42

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    75
The Honorable Gene Green, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    77
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    78
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    83
Written responses from J. Alexander Thier, J.D., to questions 
  submitted for the record by the Honorable Barbara Lee, a 
  Representative in Congress from the State of California........    85


                  AFGHANISTAN POLICY AT THE CROSSROADS

                              ----------                              


                       THURSDAY, OCTOBER 15, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order.
    We welcome our witnesses, and I will give an opening 
statement, the ranking member will be recognized for an opening 
statement, as will the chair and the ranking member on the 
Subcommittee on the Middle East and South Asia. Then members 
who are here at the time that Ileana and I finish our opening 
statements, who wish to make a statement, have 1 minute for 
opening statements. Just let the staff know and we will include 
all of those people and then we will go to our testimony.
    I now yield myself time for an opening statement.
    When the United States-led intervention in Afghanistan 
began 8 years ago, there was near unanimity in Congress and 
among the American people that this use of military force was 
fully justified. Osama bin Laden and his al-Qaeda lieutenants, 
the perpetrators of the 9/11 attacks, were operating in 
Afghanistan as the so-called ``guests'' of the ruling Taliban; 
we and our international partners went in to shut them down.
    Within months, the Taliban were driven from power, and most 
members of al-Qaeda had been killed, captured or escaped across 
the border into Pakistan.
    In the weeks and months following the intervention, there 
was considerable optimism that Afghanistan, after decades of 
exhausting and destructive war, might be ready for a fresh 
start. But over time, as our Nation's attention turned 
elsewhere, it seemed that our strategy there became to simply 
``muddle through.''
    With a substantial drawdown of our troops in Iraq on the 
horizon, and a worsening security situation in Afghanistan, 
that conflict has once again become front and center. However, 
in stark contrast to the days following 9/11, there is no 
consensus today on how the U.S. should address the challenges 
we face there. The purpose of this hearing is to help us 
consider the potential consequences of the various options that 
are now on the table.
    In March of this year, the Obama administration unveiled a 
new strategy for Afghanistan and Pakistan. The strategy centers 
on the need to disrupt and defeat al-Qaeda and prevent its 
return to Afghanistan. It also recognizes that, to quote 
President Obama, ``the future of Afghanistan is inextricably 
linked to the future of its neighbor, Pakistan.'' The $7.5 
billion assistance bill for Pakistan that Congress just passed 
will help strengthen Pakistan's capability to combat terrorists 
who threaten its security.
    Now, while keeping one eye on Pakistan, we must settle on 
the right approach for Afghanistan. That decision will be made 
against the backdrop of increasing violence in Afghanistan. 
American and coalition casualties are rising, Taliban tactics 
are becoming more sophisticated, and extremists are controlling 
an expanding swath of territory.
    To make matters worse, the legitimacy of the current Afghan 
central government has been called into question following 
allegations of massive fraud in recent elections. This will 
inevitably make our job harder--and the Taliban's job easier--
no matter what course we take.
    Much of the debate right now centers on General Stanley 
McChrystal's reported request for a ``surge'' of approximately 
40,000 additional American troops.
    In his August 30 assessment, which reflects the input of 
one of our witnesses, Dr. Kagan, and other experts, General 
McChrystal makes a persuasive case that we should implement a 
``comprehensive counterinsurgency campaign,'' much like we did 
in Iraq, in which protecting the Afghan population is the 
highest priority.
    Other key elements of the General's strategy include 
greater partnering with the Afghan security forces to improve 
their effectiveness, helping the Afghan Government become more 
accountable at all levels, and improving the command structure 
for coalition forces.
    This proposed approach raises a number of important 
questions. First, does Afghanistan, which has a more dispersed 
and diverse population than Iraq, not to mention much more 
rugged terrain, lend itself to this sort of counterinsurgency 
campaign? Can such a strategy succeed without significant 
elements of the insurgency coming over to our side, as they did 
in Iraq? If not, what are the prospects for persuading the 
Taliban rank and file to lay down their arms? Does it make 
sense to place a significant number of additional troops in 
harm's way in an effort to prevent al-Qaeda from coming back to 
Afghanistan when the terrorist group already has a sanctuary in 
neighboring Pakistan, and an increasing presence in Yemen and 
Somalia? In the absence of a troop ``surge,'' is there an 
alternative counterterrorism strategy involving some 
combination of drone strikes and special forces that could be 
employed to achieve the same goals?
    Finally, what are the implications for Pakistan if we do 
not support the McChrystal proposal? Would Afghanistan's 
neighbor consider themselves better off?
    To answer these and other important questions, we are 
fortunate to have a very distinguished panel here with us 
today, which I will introduce shortly. But before I do, let me 
turn to the ranking member, the gentlelady from Florida, Ileana 
Ros-Lehtinen, for any opening remarks she might have.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. And 
certainly the issue being addressed in this hearing is an 
important one.
    We have an impressive group of witnesses to share their 
expertise and recommendations on how to address the threats to 
United States security posed by al-Qaeda and the Taliban in 
Afghanistan. I had hoped, however, that administration 
officials would have finally made themselves available to 
testify on the implementation of our strategy in Afghanistan.
    I would like to reiterate pending request for a full 
committee hearing, as soon as possible, with senior 
administration officials. Given the gravity of the situation in 
Afghanistan, it would be our preference that the Department of 
Defense and the Department of State make both General 
McChrystal and Ambassador Eikenberry available to testify 
before our committee, so that our chief diplomat in Afghanistan 
and our commander in the field can provide a complete account 
and description of the resources, programming and management of 
United States assistance to activities in Afghanistan.
    As the President stated in his March speech on Afghanistan 
and Pakistan, the objectives of American policy in Afghanistan 
are clear. We want to create an Afghanistan from which al-
Qaeda, the Taliban and their allies have been disrupted and 
destroyed.
    He then outlined a civilian military counterinsurgency 
campaign to defeat al-Qaeda and Taliban in Afghanistan, 
including the emergence of a democratic government in 
Afghanistan that is able to secure itself from internal threats 
like the Taliban or the return of al-Qaeda. And it should have 
the support of the people, earned through the provision of a 
reasonable level of government services and reduced corruption, 
and be determined to never again provide a safe-haven for a 
militant extremist.
    Such an effort requires effective planning, and this is 
especially true of resources. To prevail against al-Qaeda and 
the Taliban in Afghanistan, the administration must fully 
implement the strategy without any further delays. It has been 
76 days since General McChrystal submitted his review to the 
administration requesting additional resources, and the clock 
continues to tick.
    Delay endangers American lives, and I say this not just as 
a Member of Congress, but as a mother whose daughter-in-law 
proudly served as a Marine officer in Afghanistan. Delay allows 
the threat against our security interests to grow. As Bruce 
Riddell, who coordinated the administration's first 
Afghanistan-Pakistan policy review earlier this year, stated in 
a recent interview with the Council on Foreign Relations, and I 
quote, ``At some point there is a cost to delay,'' and that 
cost comes in how our partners and how our enemies respond. Our 
NATO partners are already a bit squeamish.
    I am also concerned, Mr. Chairman, about efforts to 
minimize the threat from the Taliban and the confusion over 
whether the United States should pursue an exclusively 
counterinsurgency or counterterrorism strategy. On the latter, 
Mr. Riddell--again, the individual hand-picked by the President 
to conduct its first interagency review of Afghan policy--also 
dismisses as a fairy tale and a prescription for disaster the 
notion that the Taliban could be separated from al-Qaeda or 
that al-Qaeda could be eliminated simply by bombing its leaders 
in Pakistan. Thus, a shift to a predominantly counterterrorism 
campaign using air strikes and the like is clearly insufficient 
to beat back the threat to America's interests that the Taliban 
and al-Qaeda present.
    We should not be short-sighted and consider U.S. strategy 
in terms of either an exclusively counterinsurgency or 
counterterrorism strategy. Often, counterinsurgency is not at 
odds with but complementary to ongoing counterterrorism 
operations.
    In this respect, I would appreciate our witnesses' 
consideration of the following questions: Has the mission in 
Afghanistan been clearly articulated in terms of our strategic 
objective, our supportive objective? How are these being 
translated into programs?
    How would you define the resource constraints that the 
United States is encountering in Afghanistan, and what are your 
recommendations for prioritizing both U.S. and international 
resources?
    And finally, the Afghan elections have become a serious 
problem, but they are only a symptom of a far more serious 
disease. What are your recommendations for assisting the 
Afghans in improving both the quality of government and 
countering the corruption that has become endemic?
    What are your recommendations for addressing the lack of 
unity of effort in NATO ISAF?
    Additionally, what are your recommendations for matching 
the resources a given country can bring to the task to its 
political willingness to fight?
    And finally, what are your recommendations for integrating 
the strategy for Afghanistan into a broader strategy to deal 
with the threat posed by global jihadist networks and provide 
for regional security and stability?
    United States personnel in the field in Afghanistan must be 
given the resources they need to defeat our enemies. American 
lives, not just policies, are at stake.
    Thank you, Mr. Chairman.
    Chairman Berman. Thank you, Ms. Ros-Lehtinen.
    And now I am pleased to recognize the chairman of the 
Middle East and South Asia Subcommittee, the gentleman from New 
York, Mr. Ackerman, for 3 minutes.
    Mr. Ackerman. Thank you.
    With apologies to Winston Churchill, I describe our 
position in Afghanistan as a mess in the middle of a muddle, 
mired in a morass. We can't walk away and we can't stay.
    As has every Member of Congress who has been to 
Afghanistan, I have heard for the past 8 years that we have 
been making progress. So obviously now is the time for a new 
beginning and a fresh start.
    The Taliban and al-Qaeda and Pakistan terrorist groups all 
acknowledge their cooperation and common alignment under the 
same radical and violent vision of Islam. But here in 
Washington, fine distinctions are offered as a basis for 
policymaking.
    Our nation-building efforts have succeeded in creating an 
Afghan Government capable of stealing an election, but utterly 
unable to provide actual government services. We have paid $18 
billion to create Afghan security forces that can't operate 
independently and whose annual costs approach that of 
Afghanistan's GDP. We have helped create an Afghan national 
police force that is best known among Afghans for the crimes it 
commits.
    And the failures on the U.S. side are even more egregious. 
There is reconstruction spending that has rebuilt nothing 
except a large ex-pat community in Kabul. There is pass-the-
contract skimming by Beltway bandits who each simply take their 
cut, taxpayer money, before sub-, sub-, sub-, sub-, 
subcontracting out the work. There are oversized U.S. contracts 
so poorly designed that simply dropping cash out of a cargo 
plane would actually have been more efficient.
    There was a 7-year effort to get Afghan farmers to just say 
``no'' to drugs and ``yes'' to starvation. Amazing, that didn't 
work. This U.N. mission that doesn't actually appear to have 
any mission at all, and the list of failures could go on and 
on.
    Although none of this is the fault of the current 
administration, all of it is now their problem to fix. And talk 
about fixing Afghanistan is really talking about two questions: 
How can it be fixed and are we capable of doing it?
    So far there has been an enormous amount of attention and 
ink and airtime devoted to the singular and, frankly, secondary 
question of troop numbers. But it is far from clear, at least 
to me, that our problems in Afghanistan are primarily military. 
I have not heard any of the ``how'' on the political side, on 
the governance side, on the reconstruction side, on the 
economic side or on the international side.
    I think I have seen this movie before. But I am waiting to 
see how we are going to change the ending.
    Thank you, Mr. Chairman.
    Chairman Berman. Thank you.
    I have a list of five members who wish to make 1-minute 
statements. If anyone wants to be added, speak now; otherwise, 
we will cut it off. They are Sherman, Sires, Rohrabacher, Paul 
and Bilirakis.
    Green, Lee, Klein. Okay.
    The gentleman from California, Mr. Sherman, is recognized 
for 1 minute.
    Mr. Sherman. We have to determine whether we are going to 
play defense or offense, whether we are going to try to meet 
our minimum national security objectives or whether we are 
seeking a democratic and prosperous Afghanistan. We should 
focus on the latter only if we have a strategy likely to 
succeed at a reasonable incremental cost.
    First, we need to define our minimum national security 
objectives which should be two: Denying al-Qaeda facilities and 
safe-haven, which are not available to them elsewhere. But keep 
in mind, 9/11 was plotted, in part, in an apartment building in 
Hamburg. You are not going to be able to deprive al-Qaeda of a 
conference room; you can deny them a huge military facility out 
in the open, a training facility.
    Second, we need to prevent the use of Afghan territory to 
destabilize Pakistan. In order to meet our minimal national 
security objectives, we may have to do less and do it longer. 
And that will be culturally difficult for the United States, 
but sometimes defending America means playing defense.
    I yield back.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from--another gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    We are looking at a proposal to send between 10,000 and 
40,000 new combat troops, American combat troops, into 
Afghanistan, and by definition, that means more Americans 
involved in doing the fighting. That is a strategy that will 
not work and will not change the situation in Afghanistan.
    In Afghanistan there are plenty of people who are willing 
to do their own fighting, and until we get to them and get them 
on our side, we will lose in the end.
    The Taliban was routed originally--when they were 
originally routed after 9/11, there were only 200 American 
troops on the ground. The Afghans are certainly willing to 
fight; they know how to do it.
    Sending more U.S. combat troops will actually be 
counterproductive in many ways. What we need to do is make sure 
that we reach out to the Afghan people at a village level and 
spend a minuscule amount of the $31 billion that is being 
suggested in reaching out and trying to help them, rather than 
trying to send more U.S. troops to alienate them.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New Jersey, Mr. Sires, is recognized for 
1 minute.
    Mr. Sires. Thank you, Mr. Chairman, for holding today's 
hearing on such an important and pressing issue.
    The eighth anniversary of the war in Afghanistan has come 
and gone. Thousands of our troops are still risking their lives 
each day in this country, yet a comprehensive plan for the 
future of this battle has not yet been written.
    There are many complicated questions surrounding the debate 
over Afghanistan. How should the United States cooperate with a 
government after a fraudulent election? How can the United 
States execute a multinational mission when some international 
partners and U.S. citizens may be losing interest?
    We must also work to better define how we will assess our 
actions in Afghanistan. How do we measure success in the 
country? How do we define failure? How will failure affect the 
future of the region and our safety at home?
    We must pursue a plan that supports the creation of a 
secure and stable Afghanistan, a plan that looks beyond the 
current political failings and works toward a strong, 
democratic future. Only with a successful Afghanistan can our 
enemies by truly defeated.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Texas, Mr. Paul, is recognized.
    Mr. Paul. Thank you, Mr. Chairman.
    In the last month, we have had a pretense of having a 
debate about Afghanistan, but unfortunately, it is not much of 
a debate. We are deciding whether or not to send 40,000 or 
80,000 troops over to Afghanistan. We can't even decide where 
the front lines are.
    But the worst part of this is this is just deja vu again, 
all about going to war needlessly. The same arguments we used 
in going into war against Iraq; that is, weapons of mass 
destruction and al-Qaeda, scare the people, it is in our 
national defense--it is in our national security interest to go 
there. And we continue.
    The Taliban never did a thing to us. The Taliban--we were 
paying them money up until May 2001. They--they are not 
capable; even if they wanted to, they are not capable of 
touching us.
    So we are over there pursuing a war, spreading the war, 
going into Pakistan. The American people don't want it. We are 
out of money. We can't afford medical education here, and we 
are demanding that we send 80,000, 40,000 troops to Afghanistan 
and expand the war.
    It is time to end the whole mess.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Texas, Mr. Green, is recognized.
    Mr. Green. Mr. Chairman, I would like unanimous consent to 
place my full statement into the record.
    Chairman Berman. Without objection, it will be included.
    Mr. Green. Like my colleagues, I hope the President will 
make a decision soon to clarify our long-term goals. The 
security situation in Afghanistan is deteriorating. We have 
flawed election results. But unlike my colleague and neighbor 
from Texas, maybe it wasn't the Taliban that came on 2001, but 
they sure provided shelter for al-Qaeda. And we have created a 
number of enemies of our country there now.
    So I think we need to do both. We need look at our troop 
levels, but we also need to build up the Afghan institutions so 
they can fight and protect their own country.
    And with that, Mr. Chairman, I appreciate the time.
    Chairman Berman. Thank you. The time of the gentleman is 
yielded back.
    And the gentleman from Florida, Mr. Bilirakis, is 
recognized.
    Mr. Bilirakis. Thank you, Mr. Chairman and Ranking Member 
Ros-Lehtinen, thank you so much for calling this important 
hearing. And thank you to the witnesses for appearing and 
providing testimony.
    As more American soldiers are facing greater perils and 
dying in higher numbers, I believe that the administration 
should be providing much-needed information about where we are 
and where we are going in Afghanistan. This uncertainty is very 
disconcerting. Our policy should be articulated clearly.
    In August, I traveled to Afghanistan and had the honor of 
meeting with General McChrystal. He shared with me important 
information about our progress in fighting the Taliban and al-
Qaeda, information that would benefit this committee and the 
American people. He has also provided a clear, blunt report 
that articulated an explicit course of action.
    The White House should allow General McChrystal to testify 
before Congress soon. His testimony is essential to help 
Congress make informed decisions about our future in the 
region. We need to hear from General McChrystal to determine 
how we can achieve victory in Afghanistan and help our brave 
men and women who are fighting to accomplish their mission.
    Chairman Berman. The time of the gentleman has expired.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Chairman Berman. The gentlelady from California, Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman--and I thank the ranking 
member--for this hearing on Afghanistan, now facing its 9th 
year of violent and destabilizing conflict.
    And I must preface this by saying that I come to this 
discussion from a different perspective than most of my 
colleagues. I voted against the authorization to use force in 
2001, which I knew was a blank check to wage war anywhere 
around the world. Eight years later and reflecting on the rush 
to war in Afghanistan and the Bush administration's war of 
choice in Iraq, the cost to our national security and in 
American blood and treasure are undeniable.
    President Obama inherited the quagmire in Afghanistan, and 
we must ask the hard questions about our mission there.
    I believe that the President has rightfully committed 
himself to answering the fundamental question, Are we pursuing 
the right strategy? Is a military counterinsurgency strategy 
feasible or sustainable in Afghanistan? Does an open-ended 
United States military presence in Afghanistan best serve the 
United States and our national security?
    If we answer those questions and really consider our 
resources, we hopefully will be able to pursue a different 
strategy.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from Florida, Mr. Klein, is recognized for 1 
minute.
    Mr. Klein. Thank you, Mr. Chairman.
    I think the American people want to know what is the 
mission, what is the strategy. Everyone understands our 
national security is the most important thing, that American 
people on our soil are protected and our interests that are 
allied with us around the world are most importantly protected.
    The issue, of course, is, how do you do this? I think one 
lesson learned from Iraq it is not just about one country's 
borders. This is not about Afghanistan. This is about 
Afghanistan and Pakistan and Somalia and Yemen and any other 
territory where there is not a strong government or the 
opportunity for terrorists to train and to threaten us.
    So I do appreciate the fact that there is a policy of 
decision of bringing together and challenging assumptions, 
bringing together the political, the military, the intelligence 
and coming forward with a recommendation. We are going to 
discuss it, but I think the American people want to know what 
this strategy is and how it can best accomplish a true, safer 
country and national security.
    Chairman Berman. The time of the gentleman has expired.
    And the gentleman from Virginia, Mr. Connolly, is 
recognized for 1 minute.
    Mr. Connolly. Thank you, Mr. Chairman. And I have a full 
statement to enter into the record with your consent.
    The question of U.S. objectives in Afghanistan is now a 
major part of our national security debate. Is the war 
winnable? How do we define winning? Should we be involved in 
nation-building, and if so, to what end? Do we equate the 
Taliban with al-Qaeda in our objectives? What are the 
consequences of a United States retreat in Afghanistan for the 
region and especially for Pakistan?
    President Obama and the military leaders are now assessing 
the best way to meet our primary goals in Afghanistan. The 
identification of the imprecise potential menace that is the 
insurgent is the ultimate challenge. In the end, the United 
States must define clear goals, a clear timeline for 
achievement and a clear set of resources necessary to achieve 
its goals. Absent such clarity, I believe that Afghanistan 
potentially becomes another quagmire of nightmarish 
proportions.
    I thank the chair.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from South Carolina, Mr. Wilson, is 
recognized for 1 minute.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you for 
having this important hearing.
    Particularly, I am interested in the issues about 
Afghanistan. My former National Guard unit, the 218th Brigade 
of the South Carolina Army National Guard, led by General Bob 
Livingston, served there for 1 year. I know firsthand, with the 
1,600 troops from South Carolina, the largest deployment since 
World War II--and our troops were all over the country--that 
they saw the potential for the Afghan people in terms of the 
Army and police. They identified the Afghanis as their brothers 
and some very hopeful.
    Additionally, I am very grateful. I am the co-chair of the 
Afghan Caucus, so I have had the privilege of visiting the 
country nine times. I have seen it emerge from rubble to the 
potential that it has. But its beginning was as the third 
poorest country on Earth.
    So I am very hopeful that we either defeat the terrorists 
there or we will see them again here.
    Thank you very much for your being here today.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from California, Ambassador Watson, is 
recognized.
    Ms. Watson. Thank you, Mr. Chairman, for the hearing.
    To date, we know that President Obama has stated that 
withdrawal from Afghanistan is not an option at this time. But 
what do we hope to accomplish in Afghanistan?
    One goal is the elimination of the Taliban forces and the 
implementation of a working centralized government, 
representative of the Afghan people, a government that will 
effectively protect its people and defend itself. However, 
concern about corruption within the Karzai administration, as 
well as corruption of local leaders and various factions, seem 
to be working against any form of stability in government.
    We need put Afghan forces on the front, our trainers and 
our people, who will provide resources, behind; and plan a 
schedule for getting out of that country, and let them defend 
their own borders while we defend the U.S.
    Thank you, Mr. Chairman. I yield back.
    Chairman Berman. The gentleman from New York, Mr. McMahon, 
is recognized for 1 minute.
    Mr. McMahon. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing.
    As we know, since NATO took command of ISAF in 2003, the 
alliance has gradually expanded the reach of its mission, 
originally limited to Kabul, to cover Afghanistan's whole 
territory. Obviously, evolving missions require evolving 
strategies, and Mr. Chairman, I cannot see how we can commit 
40,000 more American lives without that comprehensive strategy.
    Although I cannot offer a concrete deliberation on the need 
for more troops, I can say this. What is in question right now 
in Afghanistan is not the number of troops, but what they will 
be doing in Afghanistan. Currently, about 20-25 percent of the 
Afghan police force resigns after recruitment; electoral fraud 
has tarnished the image of both the U.S. and the Karzai 
administration; and corruption and the drug trade have 
revitalized the Taliban. And yet we still have great faith in 
the Afghan people.
    Therefore, it is imperative for us to come up with a 
strategy that is both winnable and just for the Afghan people.
    Thank you, Mr. Chairman.
    Chairman Berman. Thank you.
    And I now would like to introduce our witnesses and hear 
from them. But before I do that, both the ranking member and at 
least one other member made reference to hearing from the 
administration.
    My current thinking is that we definitely must do that, but 
that the appropriate time is after they have come out with a 
strategy. And then the appropriate people--and I think it 
includes General McChrystal--come before Congress, present 
their positions and the administration's positions, subject to 
questioning and challenges and all the things that are 
associated with such a hearing. I am open to changing my mind, 
but that is my current thinking.
    Our first witness that I want to introduce is Steve Coll, 
president and CEO of the New America Foundation and a staff 
writer at the New Yorker magazine. For the past 20 years, Mr. 
Coll was a foreign correspondent and a senior editor at the 
Washington Post, serving as the paper's managing editor from 
1998 to 2004.
    Mr. Coll is the author of six books, including, ``On the 
Grand Trunk Road: A Journey into South Asia'' in 1994 and the 
well known ``Ghost Wars: The Secret History of the CIA, 
Afghanistan and Bin Laden, from the Soviet Invasion to 
September 10, 2001,'' published in 2004.
    Mr. Coll's professional awards include two Pulitzer Prizes, 
the second of which was for his work on Afghanistan.
    J. Alexander Thier is the director of Afghanistan and 
Pakistan at the U.S. Institute of Peace, co-chair of the 
Afghanistan and Pakistan working groups and co-author and 
editor of the newly released, ``The Future of Afghanistan.''
    Mr. Thier was a member of the Afghanistan Study Group, co-
chaired by General James Jones and Ambassador Tom Pickering, 
and co-author of its final report. Prior to joining USIP, Mr. 
Thier was the director of the Project on Failed States at 
Stanford University's Center on Democracy, Development and the 
Rule of Law.
    From 2002 to 2004, Mr. Thier was a legal advisor to 
Afghanistan's Constitutional and Judicial Reform Commissions in 
Kabul. He also served as a U.N. and NGO official in Pakistan 
and Afghanistan from 1993 to 1996.
    Frederick W. Kagan is the resident scholar and director of 
the Critical Threats Project at the American Enterprise 
Institute. His most recent publications, based on multiple 
trips to Afghanistan, focus on force requirements and analyses 
of how various groups and stakeholders in Afghanistan and 
Pakistan would respond to different United States policy 
scenarios.
    As I mentioned in my opening statement, Dr. Kagan is one of 
the experts that contributed to General McChrystal's recent 
assessment. He is also widely credited as one of the 
intellectual architects of the Iraq surge as a result of the 
January 2007 paper he co-authored with General Jack Keane, 
entitled, ``Choosing Victory: A Plan for Success in Iraq.''
    Previously, Dr. Kagan was an associate professor of 
military history at the United States Military Academy at West 
Point.
    We are very pleased that you are here with us today.
    And, Mr. Coll, why don't you start off?

 STATEMENT OF MR. STEVE COLL, PRESIDENT, NEW AMERICA FOUNDATION

    Mr. Coll. Thank you very much, Mr. Chairman, and thank you 
for this opportunity to testify.
    I had prepared a lengthy written statement which----
    Chairman Berman. I should say that all of the statements 
will be in the record in their entirety. We do want to hear 
from you and have time to make your points. But your entire 
testimony will be part of the record.
    Mr. Coll. I appreciate that, and that statement covers some 
of the questions that members asked during the excellent round 
of opening statements about the potential of a counterterrorism 
strategy as against counterinsurgency and this question of 
sanctuary. So I would be happy to review those issues.
    During my brief time, let me just review a couple of points 
that arise from my own field research and historical research. 
Let me start with a sense of what I think is at issue in the 
Afghan conflict.
    I think, in my judgment, the United States has two 
compelling interests at issue in the conflict. One is the 
increasingly successful, but incomplete effort to reduce the 
threat posed by al-Qaeda and related jihadi groups and to 
finally eliminate the al-Qaeda leadership that carried out the 
9/11 attacks.
    The second is the pursuit of a South and Central Asian 
region that is at least stable enough to ensure that Pakistan 
does not fail as a state or fall into the hands of Islamic 
extremists.
    I think more than that may well be achievable. In my view, 
I think most of the current commentary underestimates the 
potential for transformational changes in South Asia over the 
next decade or two, spurred by economic progress and 
integration. But there is no question that the immediate policy 
choices facing the United States in Afghanistan are very 
difficult, and almost any path carries considerable risk and 
uncertainty.
    What I would like to review in my few minutes are two 
subjects, one, of the comparison that is often made between the 
choices facing the United States today and the experience of 
the Soviet Union during the 1980s; and secondly, the 
relationship between United States policy choices in 
Afghanistan and Pakistan's own evolution over the next few 
years.
    I think the situation facing the United States is much more 
favorable than that which faced the Soviet Union at any stage 
of its Afghan misadventure. I want to briefly explain why.
    In a global and diplomatic sense, the Soviet Union failed 
strategically in Afghanistan from the moment it invaded the 
country. It never enjoyed much military success during the 8 
years of direct occupation. Neither Soviet forces nor their 
client, Afghan Communist Government, ever controlled the Afghan 
countryside. And yet despite these failures, the Soviet Union 
and its successor client government led by President 
Najibullah, never lost control of the Afghan capital, major 
cities and provincial capitals or the formal Afghan state. It 
was only after the Soviet Union formally dissolved in 1991, and 
Najibullah lost the supply lines from Moscow that the 
mujahideen Islamist guerillas finally prevailed and seized 
Kabul.
    The territorial achievements of the Najibullah government--
no forcible takeover of the Afghan state by Islamist guerillas, 
continuous control of all the country's major cities and 
towns--might actually look attractive to the United States 
today as a minimum measure of success, and there is every 
reason to believe that the international mission can do much 
better than that.
    Afghan public opinion today remains much more favorably 
disposed toward international forces in cooperation with 
international governments than it ever was toward the Soviet 
Union. The presence of international forces in Afghanistan 
today is recognized as legitimate and even righteous, whereas 
the Soviets never enjoyed such recognition and were unable to 
draw funds and support from international institutions in a 
meaningful way.
    China today wants a stable Afghanistan. In the Soviet era, 
it armed the rebels.
    The Pakistani army today is divided and uncertain in its 
relations with the Taliban and it is beginning to turn against 
them, certainly against elements of them quite forcefully. 
During the Soviet period, the Pakistan Army was united in its 
efforts to support the rebels.
    And even if the number of Taliban active fighters today is 
on the high side of published estimates, those numbers are much 
smaller than the number of Islamic guerillas that fought Soviet 
and Afghan forces even in the late period.
    The second issue I would like to briefly outline is the 
impact of American policy in Afghanistan on the tolerance and 
support of Islamist extremist groups, including the Taliban, by 
the Pakistani army and security services. Pakistan's use of 
Islamist militias as an asymmetric defense against India has 
been an important factor in the Afghan war both before 9/11 and 
after. However, the relationship between the Pakistani security 
services and Islamist extremist groups is not static or 
preordained.
    Pakistani public opinion, while it remains hostile to the 
United States, has of late turned sharply and intensely against 
violent Islamist militant groups operating within Pakistan. The 
Pakistan Army, itself reeling as an institution from public 
skepticism, is proving to be responsive to this change of 
public opinion.
    Moreover, the army civilian political leaders, landlords, 
business leaders and Pakistani civil society have entered into 
a period of competition and open discourse over how to think 
about the country's national interests and how to extricate 
themselves from the Frankenstein-like problem of Islamic 
radicalism created by their historical security policies. There 
is a growing recognition in this discourse among Pakistani 
elites that the country must find a new national security 
doctrine that does not fuel internal revolution and impede 
economic and social progress.
    The purpose of American policy should be to create 
conditions within and around Pakistan for the progressive side 
of this argument among Pakistani elites to prevail over time. 
American policy over the next 5 or 10 years might also 
recognize that the ultimate exit strategy for international 
forces from South Asia is Pakistan's own success and political 
normalization manifested in an army that shares power with 
civilian leaders in a reasonably stable constitutional bargain 
and in the increasing integration of Pakistan's economy with 
regional economies, including India's.
    Against this backdrop, a Taliban insurgency that 
increasingly destabilizes both Afghanistan and the border 
region with Pakistan would make such normalization very 
difficult, if not outright impossible, for the foreseeable 
future. Among other things, it would reinforce the sense of 
siege and encirclement that has shaped Pakistan's support for 
Islamist proxy militias in the past.
    Conversely, a reasonably stable Afghan state, supported by 
the international community, increasingly defended by its own 
army and no longer under threat of coercive revolution by the 
Taliban, could contribute conditions for Pakistan's Government 
to negotiate and participate in political arrangements in 
Afghanistan and Central Asia that would address Pakistan's 
legitimate security needs in its own backyard by a means other 
than the use of Islamist proxies.
    America's record of policy failure in Afghanistan and 
Pakistan during the last 30 years should humble all of us, I 
think. It should bring humility to the ways we define our goals 
and realism about the means required to achieve them. And I 
think it should lead us to emphasize political approaches over 
kinetic military ones, urban population security in Afghanistan 
over provocative rural patrolling and Afghan and Pakistani 
solutions over American blueprints.
    But it should not lead us to defeatism or to acquiescence 
in a violent or forcible Taliban takeover of either country. We 
do have the means to prevent that, and it is in our interest to 
do so.
    Thank you.
    [The prepared statement of Mr. Coll follows:]<greek-l>Steve 
Coll deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Thank you, Mr. Coll.
    Mr. Thier.

STATEMENT OF J. ALEXANDER THIER, J.D., DIRECTOR FOR AFGHANISTAN 
         AND PAKISTAN, UNITED STATES INSTITUTE OF PEACE

    Mr. Thier. Mr. Chairman, Ranking Member and members of the 
committee, I am Alex Thier, the director for Afghanistan and 
Pakistan at the U.S. Institute of Peace. Thank you for the 
opportunity to present my personal views about the way forward 
for the United States in Afghanistan.
    My understanding of the potential and pitfalls of our 
policy choices in Afghanistan is based on intensive personal 
experience there over the last 16 years. Through 4 years on the 
ground during the Afghan civil war in the 1990s, I witnessed 
the impact of war, warlordism, Talibanism and abandonment by 
the West. But I also came to know another Afghanistan, replete 
with moderate, hardworking men and women who want nothing more 
than a modicum of stability.
    Afghanistan is not some ungovernable tribal society doomed 
to permanent conflict. Even during the war, thousands of 
community leaders worked to resolve conflicts and improve 
living standards for their people.
    We face four fundamental questions in Afghanistan:
    Do we have national security interests in Afghanistan?
    If so, do we have an effective strategy to secure and 
protect those interests?
    Do we have the tools, resources and partnerships in place 
to implement that strategy?
    And, finally, is it worth the effort and investment?
    Ultimately, I believe that we do have a deeply compelling 
national security interest in Afghanistan and that our best 
strategy, albeit the best of a bad series of options, is to 
recommit ourselves to the stabilization of Afghanistan. As 
difficult as it will be to follow the promises we have made to 
the Afghans over the last 8 years, the alternatives are far 
more dangerous, dispiriting and unpredictable.
    Despite setbacks, I believe that we know what success looks 
like in Afghanistan: When the path offered by the Afghan 
Government, in partnership with the international community, is 
more attractive, more credible and more legitimate than the 
path offered by the insurgents.
    Do we have national security interests in Afghanistan? In 
my opinion, the answer to this first question is the clearest. 
We face a stark array of consequences from Afghan instability, 
including an emboldened al-Qaeda, the restoration of Taliban 
rule to some or all of Afghanistan and the return of civil war 
there, the fall of more Pakistani territory to extremists, the 
potential proliferation of weapons of mass destruction. The 
United States and NATO would also suffer a credibility crisis 
if the Taliban and al-Qaeda can claim a military victory in 
Afghanistan.
    So do we have an effective strategy to secure and protect 
those interests? I believe that the March 2009 strategy, which 
is aimed at stabilization and not just counterterrorism, is 
sound in theory. Stabilization requires simultaneously 
addressing security, governance and the rule of law and 
economic development.
    But 4 years of deterioration in both Afghanistan and 
Pakistan has created a crisis of confidence among Afghans, 
Americans and other troop-contributing nations. Thus, I believe 
the question becomes whether we have the tools, resources and 
partnerships in place to implement that strategy. In other 
words, if we want to, can we stabilize Afghanistan?
    This is the most difficult question to answer. In 2001, the 
answer seemed to be ``yes,'' if we had made the necessary 
commitments. But serious resources, including troops, aid, 
capacity-building efforts and political attention were lacking.
    At the same time, the Afghan Government has not fulfilled 
its promise. No government that is unable to provide security 
and which is seen as corrupt and unjust will be legitimate in 
the eyes of the population. It is this illegitimacy that has 
driven Afghans away from the government and emboldened the 
insurgency.
    To overcome these challenges, we must do four things with 
our Afghan partners. First, we must radically prioritize what 
we want to accomplish. For too long we have been doing too many 
things poorly instead of a few things well. In this critical 
year, it is essential to simultaneously scale back our 
objectives and intensify our resources.
    Second, we must address the culture of impunity and improve 
governance there. Without a credible and legitimate Afghan 
partner, we cannot succeed no matter the scale of our 
investment. The United States must act aggressively, with its 
Afghan partners in the lead, to break the cycle of impunity and 
corruption that is providing a hospitable environment to the 
insurgency.
    Third, we must decentralize our efforts to reach the Afghan 
people. A top-down Kabul-centric strategy to address governance 
and economic development is mismatched for Afghanistan, one of 
the most highly decentralized societies in the world. We must 
engage the capacity of broader Afghan society, making them the 
engine of progress, rather than the unwilling subjects of rapid 
change.
    And finally, we must improve international coordination and 
aid effectiveness. The U.S. must use its aid to leverage 
positive change and must coordinate closely those efforts with 
our international allies.
    Finally, all things considered, is the continuation or even 
expansion of the American engagement in Afghanistan worth the 
investment? I believe that the answer is ``yes.'' The Afghan 
people and those who have lived and worked among the Afghans 
have not given up hope for a peaceful Afghanistan. They are not 
helpless without us, but they do rely on us for the promise of 
a better future, a promise that we have made repeatedly over 
the last 8 years.
    I understand that remaining committed to the stabilization 
of Afghanistan is not easy. It will be costly in lives and 
taxpayer dollars. It is a challenging mission in every way, yet 
the alternatives, when examined honestly, are unbearably bleak. 
Thank you.
    [The prepared statement of Mr. Thier 
follows:]<greek-l>Alexander Thier deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you.
    And Dr. Kagan.

   STATEMENT OF FREDERICK W. KAGAN, PH.D., RESIDENT SCHOLAR, 
                 AMERICAN ENTERPRISE INSTITUTE

    Mr. Kagan. Thank you, Mr. Chairman and Ranking Member, 
members of the committee. Thank you for holding this hearing.
    I want to just start by----
    Chairman Berman. Pull the microphone just a little closer.
    Mr. Kagan. Sorry. How is that?
    I want to start by noting the one good thing about this 
debate is that it has not been a partisan debate in this town. 
And I think that stands in more contrast to the nature of the 
debate that we had over the Iraq war, which was unfortunately 
toxic because of its partisan nature.
    Here, I think that we have an effort collectively really 
among people who disagree to come to some general understanding 
of the problem, and I think that it is a very healthy 
development in our discussion of strategy.
    I agree with a great deal of what--actually, almost all of 
what my colleagues said. And what I would like to do is, first 
of all--Mr. Chairman was kind enough to mention my 
participation in the initial assessment group--to say that 
although I was honored to serve as a member of that group, I am 
not speaking for General McChrystal, I am not channeling 
General McChrystal, I am not leaking on behalf of General 
McChrystal, I haven't spoken to General McChrystal about this. 
These are my own thoughts.
    Having said that----
    Chairman Berman. In other words, this is General 
McChrystal's testimony?
    Mr. Kagan. Right. Oh, well, I see that disclaimer didn't 
work.
    Having said all of that, what I am actually going to do is 
read a bunch of things from the actual assessment that was 
leaked by the Washington Post and a couple of other recent 
studies and pieces, because I think that we have really--it is 
a dense document, the assessment is. It is a very complicated. 
Afghanistan will give you a headache if you think about it for 
30 seconds. And a lot of press reports have highlighted or 
asserted things about the assessment that I don't think 
accurately reflect what General McChrystal is trying to do, 
even apart from the fact that what is publicly available is a 
redacted draft. So forgive me while I read a few sections from 
it to highlight some of the key aspects of this strategy.
    First of all, under ``Objectives,'' if you ask, What does 
General McChrystal think that his objectives are? he lays them 
out very clearly. President Obama's strategy to disrupt, 
dismantle and eventually defeat al-Qaeda and prevent their 
return to Afghanistan has laid out a clear path of what we must 
do. That is the objective that General McChrystal is trying to 
achieve, and I don't see in this document a mission statement 
or objective other than that, except for the ISAF mission 
statement. Because General McChrystal is a NATO commander, and 
NATO has given ISAF a mandate and the mission is,<greek-l> 
quote, deg.

        ``ISAF, in support of the Government of Afghanistan, 
        conducts operations in Afghanistan to reduce the 
        capability and will of the insurgency, support the 
        growth and capacity and capability of the Afghan 
        national security forces and facilitate improvements in 
        governance and socioeconomic development in order to 
        provide a secure environment for sustainable security 
        that is observable to the population.''

General McChrystal adds,

        ``Accomplishing this mission requires defeating the 
        insurgency, which this paper describes as a condition 
        where the insurgency no longer threatens the viability 
        of the State. The Government of Afghanistan must 
        sufficiently control its territory to support regional 
        stability and prevent its use for international 
        terrorism.''

    Those are the objectives at which this strategy aims, at 
least according to this assessment document and what General 
McChrystal has said. And I think that accusations or assertions 
that this somehow really is an attempt to build Valhalla in 
South Asia and has gotten that he has gone off the reservation 
and moved away from the President's mandate are unfounded.
    I think it is important to understand the degree to which 
General McChrystal himself highlights the need to get Afghan 
forces into this fight and turn this fight over to Afghan 
forces as quickly as possible. He says,

        ``The objective is the will of the people. The Afghans 
        must ultimately defeat the insurgency. We cannot 
        succeed without significantly improved unity of effort, 
        and protecting the people means shielding them from all 
        the threats. Ideally, the AMSF must lead this fight, 
        but they will not have enough capability in the near 
        term, given the insurgency's growth rate. In the 
        interim, coalition forces must provide a bridge 
        capability to protect critical segments of the 
        population. The status quo will lead to failure if we 
        wait for the AMSF to grow.''

    I believe this is an assessment that was based on a large 
amount of staff work that was done within the Intelligence 
Community, within Kabul, with CSTC-A, which runs--the training 
command that oversees the Afghan forces and with our commanders 
on the ground. I believe that it is a correct assessment.
    I think that General McChrystal is making it clear, and he 
has made it clear repeatedly, that he does not desire or intend 
to have American forces waging this war indefinitely into the 
future; and he does support the notion of transitioning 
responsibility for the conflict to the Afghan security forces 
as rapidly as it is possible. But his assessment is, it is not 
now possible to do that in the circumstances as they exist.
    Speaking to the question of al-Qaeda's involvement, which I 
think is important because it comes up periodically, the 
assessment addresses the issue and says,

        ``Al-Qaeda and associated movements based in Pakistan 
        channel foreign fighters, suicide bombers and technical 
        assistance into Afghanistan and offer ideological 
        motivation, training and financial support. Al-Qaeda's 
        links with the Haqqani network, which is an element of 
        the Taliban, have grown, suggesting that expanded 
        Haqqani control could create a favorable environment 
        for al-Qaeda and associated movements to reestablish 
        safe havens in Afghanistan.''

    There are people who have made arguments that a return of 
the Taliban government would not, in fact, lead to a return to 
al-Qaeda. But I have to say, looking at the evidence, there is 
a real danger in cherry-picking intelligence in order to 
support an assertion like that, because I believe that the mass 
of the evidence suggests otherwise, even if people can isolate 
individual instances that would seem to say so.
    It is also important to recognize that the assessment was 
developed on the assumption that the elections would be 
fraudulent, at least to some considerable degree. And in the 
assessment it notes, ``The recent presidential and provincial 
council elections were far from perfect and the credibility of 
the election results remains an open question.''
    I think it no longer is an open question. This clearly was 
a fraudulent process that has harmed the legitimacy of the 
government. But that was an element that I believe was factored 
into the assessment that General McChrystal has produced, by 
which I mean it is not a new development which would justify or 
require necessarily rethinking the entire approach or starting 
over.
    The points about prioritization of effort that my 
colleagues have made and many other people have made are very 
well taken. ISAF strategy previously and the strategy of the 
international aid community had really been very much spreading 
forces and resources more or less at random around the country, 
vaguely trying to tie them to population centers but without 
clearly articulating why any particular area was more important 
than any other particular area.
    The strategy that General McChrystal is working on is 
designed specifically to address that precise problem, that 
until you have identified which areas really matter and what 
you need to do about them, you can't come up with any 
meaningful assessment of resources that is anything other than 
infinity.
    So, to read a couple of sections from the report:

          ``ISAF's operations will focus first on gaining the 
        initiative and reversing the momentum of the 
        insurgency. ISAF will prioritize available resources to 
        those critical areas where the population is most 
        threatened. ISAF cannot be strong everywhere. ISAF must 
        focus its full range of civilian and military resources 
        where they will have the greatest effect on the people. 
        This will generally be in those specific geographic 
        areas that represent key terrain. ISAF will initially 
        focus on critical high population areas that are 
        contested or controlled by insurgents, not because the 
        enemy is present, but because it is here that the 
        population is threatened by the insurgency.
          ``Based on current assessments, ISAF prioritizes 
        efforts in Afghanistan into three categories to guide 
        the allocation of resources.''

What follows is a section that has been redacted, quite 
appropriately, because we don't need to tell the enemy exactly 
how we are going to be prioritizing our efforts. But this was 
the beginning of a clear statement of the prioritization of 
effort within the country to focus on the areas that matter 
rather than attempting to deal with every problem everywhere.
    General McChrystal also noted in his assessment something 
else that is very important, which is that we are not going to 
solve this entire problem all at once. And we have to recognize 
that it will develop over phases. He says:

        ``We face both a short- and a long-term fight. The 
        long-term fight will require patience and commitment, 
        but I believe the short-term fight will be decisive. 
        Failure to gain the initiative and reverse insurgent 
        momentum in the near term, next 12 months, while Afghan 
        security capacity matures, risks an outcome where 
        defeating the insurgency is no longer possible.''

    I agree with that assessment. I do believe that we are at 
this moment losing the war in Afghanistan. I believe that if we 
do not send sufficient forces to reverse the insurgency's 
momentum, the war will be lost long before there is any 
prospect of bringing Afghan forces or local security forces to 
bear on the problem.
    General McChrystal also noted: Our campaign in Afghanistan 
has been historically under resourced and remains so today. 
Success will require a discrete jump to gain the initiative, 
demonstrate progress in the short term, and secure long-term 
support.
    And here he is referring also to the psychological effect, 
I believe, of the commitment of a significant, potentially 
decisive amount of U.S. force rather than what looks like a 
grudging parceling out and incremental approach of U.S. forces 
that will allow the enemy to believe that successful enemy 
operations can deter the U.S. from sending the next force 
packet. I believe that was important in Iraq, and it is 
important here.
    And I want to highlight this culture of poverty. All of a 
sudden we have gone from a situation where everyone who has 
been to Afghanistan has seen how desperately poor that theater 
is in terms of resources, how hard it is to move around, how 
you have--I certainly noticed this--how you have majors and 
lieutenant colonels working on your travel arrangements instead 
of specialists and sergeants, because there aren't enough 
specialists and sergeants to go around. The way that that 
organization is run, it is church rat poor, and it has been for 
a long time. And I think that we really need to keep that in 
mind as we think about the prospect of nickel and diming that 
command over troop requests. Because this isn't Iraq, this 
isn't a highly developed theater with lots of capabilities and 
lots of things, lots of people lying around not doing anything. 
Everyone in Afghanistan is working five jobs. It would be nice 
if we could get them down to working four jobs.
    I would like to just point out quickly that the British 
Prime Minister, of course, has now laid out his strategy, and 
he has already committed to the counterinsurgency approach and 
made very clear that Britain's objective is to defeat the 
insurgency by isolating and eliminating the leadership.
    I think we need to think about the alliance consequences of 
choosing another strategy. Those of you who have read Dexter 
Filkins' recent article in the New York Times magazine, you 
will find some very useful insight into McChrystal's thinking 
also about the role of counterterrorism. He says killing 
insurgents in Iraq worked there only because it was part of a 
much larger effort to not only defeat the insurgency but also 
to build an Iraqi state that could stand on its own. He noted 
if we are good here, it will have an effect on Pakistan; but if 
we fail here, Pakistan will not be able to solve their 
problems, which I also believe is true.
    And there were three quotes that Dexter Filkins reported 
from locals, that echoed with me very much from conversations 
that I had had with many Iraqis when we were discussing the 
surge, or when we were implementing the surge early on in 2007. 
One of the Afghans said, ``You guys, you come to help and then 
you leave. The Afghan people are not 100 percent sure that you 
are going to stay. They are not sure they won't have their 
throats cut if they tell the Americans where a bomb is.''
    Separately, an old man with a long beard stepped forward. 
``We are afraid you are going to leave this place after a few 
months,'' the old man said, ``and the Taliban will take their 
revenge.''
    Lastly, ``Everyone in Garmsir sees that you are living in 
tents, and they know that you are going to be leaving soon. You 
need to build something permanent, a building, because your job 
here is going to take years. Only then will people be persuaded 
that you are going to stay.''
    We heard many similar comments in Iraq. If you want to get 
local people to fight for you, you have to persuade them that 
you will be there for them.
    Which leads me to my last point, which is a look, a brief 
look at the Kerry-Lugar bill, which is now so much in debate in 
Pakistan, from a different perspective. I think that the 
language that is in that bill requiring Pakistan to comply and 
requiring our agencies to report on Pakistani compliance, which 
is really what the language is with our desires, is perfectly 
reasonable and appropriate. And I think we have got ourselves 
caught in the middle of a Pakistani political firestorm that 
has little to do with the specific language in the bill.
    But I would like to focus on something else in that bill. 
The following sentences are in that piece of legislation:

          ``The U.S. intends to work with Pakistan to 
        strengthen Pakistan's counterinsurgency and 
        counterterrorism strategy to help prevent any territory 
        of Pakistan from being used as a base or conduit for 
        terrorist attacks in Pakistan or elsewhere.
          ``Under the `security assistance' title, the purpose 
        of assistance under this title is to work in close 
        cooperation with the Government of Pakistan to 
        coordinate action against extremist and terrorist 
        targets. Pakistan has made progress on matters such as 
        preventing al-Qaeda, the Taliban, and associated 
        terrorist groups such as Lashkar-e-taiba and Jaish-e-
        Mohammed from operating in territory of Pakistan, 
        including carrying out cross-border attacks into 
        neighboring countries.''

I am sorry, we have to certify that it has done that.

          ``The President shall develop a comprehensive 
        interagency regional security strategy to eliminate 
        terrorist threats and close safe havens in Pakistan, 
        including by working with the Government of Pakistan 
        and other relevant governments and organizations in the 
        region and elsewhere to best implement effective 
        counterinsurgency and counterterrorism efforts in and 
        near the border areas of Pakistan and Afghanistan, 
        including the FATA, the NWFP, parts of Baluchistan, and 
        parts of Punjab.''

    And, lastly,

          ``Agencies are obliged to provide an evaluation of 
        efforts undertaken by the Government of Pakistan to 
        disrupt, dismantle, and defeat al-Qaeda, the Taliban, 
        and other extremist and terrorist groups in the FATA 
        and settled areas, eliminate the safe havens of such 
        forces in Pakistan, prevent attacks into neighboring 
        countries.''

    I would ask: How can we insist that the Pakistanis conduct 
operations like that while we say that we are not going to do 
the same things on the Afghan side of the border which is under 
our security responsibility and directly impacts their ability 
to do those things?
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kagan 
follows:]<greek-l>Frederick Kagan deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you. Thank all of you. And I yield 
myself 5 minutes. And that 5 minutes, I must remind myself as 
well as my colleagues, includes my question and the witness' 
answers.
    I would like to turn part of my rhetorical questions into 
real questions. Can we achieve these objectives without 
significant elements of the insurgency coming over to our side? 
And if we can't, is that a realistic prospect to persuading 
elements of the Taliban to lay down their arms?
    And while Dr. Kagan has spoken to it, I would like to hear 
the other two witnesses address the alternative view that there 
is a counterterrorism strategy involving some combination of 
drone strikes and special forces that could be employed to 
achieve the goals of the mission that was outlined last March.
    Mr. Thier. I think that the first question, the question of 
political reconciliation in Afghanistan and the opportunity to 
attempt to bring some of the insurgents over, is a critical and 
often overlooked component of how we need to approach the 
situation in Afghanistan. The U.N. and others put out these 
maps where they show the increasing insecurity creeping across 
the country, the sort of red tide of Taliban influence. What is 
most significant about that map is that 4 years ago, 3 years 
ago, many of those areas that are today dangerous were not. 
They were solidly pro-government, or at least were not causing 
problems.
    And when we think about this question of reconciliation, we 
have to think about what it is over the last 4 or 5 years that 
has caused some people who were either pro-government or at 
least neutral to go over to the other side.
    And I believe that a lot of the foundation of that is not 
about the strength of the Taliban or the attractiveness of the 
Taliban message, but the failure to present a government that 
appeals to the interests of those people; or, at worst, the 
presentation of a government that actively discourages those 
people through corruption.
    And so I think that there is a lot that can be done maybe 
not to get Mullah Omar and Hamid Karzai on the deck of an 
aircraft carrier, but to get a lot of the mid-level insurgent 
commanders, people who have more recently begun the fight 
against the government, to come over to the other side. And I 
think that there are multiple-level inducements that can 
accomplish that.
    If you look at the history of factional negotiation in 
Afghanistan, one of the things that people always point out is 
that Afghan factions routinely change sides. It happened 
constantly during the civil war. This is because ultimately 
people are looking for who they think the winner is going to 
be, and looking out for their self interest. And so I think 
that there is a lot that can be explored there.
    The only caveat that I would add is that this does really 
have to be Afghan-led and supported by the international 
forces. But it has to be Afghan-led. And in order to do that, 
the Afghan Government needs to have a much more----
    Chairman Berman. It wasn't in Iraq.
    Mr. Thier. It wasn't in Iraq.
    Chairman Berman. Afghan-led.
    Mr. Thier. Or Iraqi-led. Right.
    Chairman Berman. I mean Iraqi-led.
    Mr. Thier. I believe in this case that the reason that it 
needs to be Afghanistan-led is that I don't think that there is 
an Anbar Awakening-like situation waiting to happen in 
Afghanistan. I think that these are micro-political disputes in 
different provinces that require intensive knowledge of what is 
going on in that area; of what tribe and what subtribe is 
aggrieved, and why; who is the governor? And I think that that 
is, frankly, something that the Afghans are much more capable 
of handling. We have to support that. But I think that it has 
to be Afghan-led.
    Just to turn briefly to the question of the drones, I don't 
believe that without resources on the ground we are able to 
support a policy. The way that those policies function 
successfully is when you have people on the ground, local 
people who provide you intelligence and who support that 
policy. I think the idea that somehow we are going to get the 
insurgents when they pop their heads out of the cave or get al-
Qaeda when they pop their heads out of the cave is misguided. 
You may be able to get a few people. You are also likely to 
kill civilians through that model.
    I ultimately believe that if we are going to see stability 
in Afghanistan, we have to be there on the ground supporting 
the Afghan people and developing their capacities.
    Chairman Berman. In the last 3 seconds that are left, do 
you have a different view? And if you do, I will come back on 
the second round. I withdraw the question because my time has 
expired, and we have--the bells have gone off. We have three 
votes on the floor. I will recognize the ranking member, then 
we will recess and come back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. There 
have been reports that the administration is considering a 
counterterrorism strategy that would tolerate the Taliban 
returning to power in Afghanistan. The Washington Post noted 
that White House officials are suggesting that the United 
States treat the Taliban as Hezbollah in Lebanon. We have seen 
how well that has worked out.
    If such an approach is adopted, do you believe that the 
Taliban would actually deny al-Qaeda sanctuary in Afghanistan? 
Do you not agree that acceptance of the Taliban further 
endangers U.S. interests and allies in the region?
    Also, according to one of the theories reportedly being 
considered by the administration, only al-Qaeda poses a 
strategic threat to U.S. national interests but we must defeat 
an element of the Taliban to defeat al-Qaeda. How can we 
logically separate the two in terms of policy but not of 
strategy?
    And finally, Dr. Kagan, could you elaborate on the role 
that Iran is playing in Afghanistan, particularly the Iran 
Revolutionary Guard Corps? And how is our approach to Iran's 
nuclear program affecting Iran's activities in Afghanistan? 
Thank you, gentlemen.
    Mr. Coll. On the question of the Taliban's return to power 
and whether or not it is plausible to imagine that they would 
not accommodate al-Qaeda, my own judgment is it is not 
plausible to assess that they would keep al-Qaeda out. The 
Taliban, of course, are a diverse organization with diverse 
leadership groups, and so all Taliban assessments are not the 
same. But of the main leadership groupings, the Quetta Shura, 
led by Mullah Omar and his advisers and colleagues, has a long 
record of collaboration with al-Qaeda. They certainly have 
diverse views about whether that collaboration has been good 
for them or not. And there is a debate within them that might 
create opportunities to separate one group of leaders from 
another. But there is no record that their judgment has been 
that they should break with al-Qaeda.
    Ms. Ros-Lehtinen. Thank you, Mr. Coll. Mr. Thier? Just take 
any one of those.
    Mr. Thier. I will just respond briefly. Having watched the 
Taliban take over Afghanistan for the first time in the 1990s 
and watching how they grew together with al-Qaeda, they are 
genetically mixed with al-Qaeda as well as ideologically mixed 
with al-Qaeda. There have been intermarriages. It is very 
difficult for me to believe that suddenly the Taliban are going 
to become an anti-al-Qaeda force and prevent al-Qaeda from 
coming in. I don't think there is any evidence to support that. 
And we can't be certain that they will. But anybody who 
suggests otherwise I think is making it up.
    Ms. Ros-Lehtinen. Thank you, sir. And Dr. Kagan, if you 
could address that and also the Iran issue.
    Mr. Kagan. Yes. I agree absolutely, not only is there no 
reason to think that the Taliban would resist al-Qaeda, there 
is no evidence I think that they would, nor is there any 
evidence at all that they could keep al-Qaeda----
    Ms. Ros-Lehtinen. So tolerating the Taliban in any form 
back in Afghanistan is not a good thing.
    Mr. Kagan. It would be almost certain to provide al-Qaeda 
with renewed safe havens that we would not be able to access.
    The Hezbollah analogy is particularly bizarre, because 
Hezbollah is a part of the Lebanese Government, Hezbollah has 
accepted the political process in Lebanon. It is also a global 
international terrorist group that absolutely does pose a 
threat to American interests. And it is very strange when 
people say that it doesn't. But it is, actually when you think 
about it then in that way, in no way like the Taliban. So I 
don't understand the basis for that comparison.
    Iran is playing a very complicated game in Afghanistan, as 
it does everywhere. It is backing all sides. It has been paying 
Karzai heavily. It paid Abdullah heavily. It would pay 
everyone. But it has been--and we have this from much open 
source reporting--it has been training Taliban fighters in 
camps in Iran. It has been facilitating the movement of 
weapons, some high-end weapons but not very many, and suicide 
bombers, into Afghanistan. It is my belief that the Iranians 
aim to develop a series of Taliban groups along their frontier 
that are loyal to Tehran in large part as a way of defending 
themselves against the coming collapse that they see, and, 
frankly, that I think they desire. Because the one thing that 
the Iranians make clear on a regular basis is that they want us 
out of Afghanistan as quickly as possible.
    Ms. Ros-Lehtinen. Thank you. And lacking administration 
officials, we have to look at news reports that say some inside 
the White House have cited Hezbollah, the armed Lebanese 
political movement, as an example of what the Taliban could 
become. And they see Hezbollah as not a threat to the United 
States. So that is certainly frightening. Thank you.
    Chairman Berman. The time of the gentlelady has expired. 
The hearing will recess for probably 20 minutes.
    [Recess.]
    Chairman Berman. The committee will come to order. I 
recognize the gentleman from Massachusetts, Mr. Delahunt, for 5 
minutes.
    Mr. Delahunt. I thank you, Mr. Chairman. I just have some 
very simple questions. The strategy, as outlined in news 
accounts and from the public source or open source information 
that you have, what would the cost be? You know, we have been 
talking about whether the strategy makes sense. Can the three 
of you give just a rough estimate what the cost to the American 
taxpayers would be?
    Mr. Coll, could we start with you? Take a wild guess.
    Mr. Coll. You know, I am afraid, sir, I have no basis to 
make an accurate estimate of that sort.
    Mr. Delahunt. Okay. Mr. Thier?
    Mr. Thier. Obviously, it is probably useful to break down 
the civilian and military cost components. I believe that the 
military--and Fred may know better than I would--is probably 
roughly on the order of magnitude of about $60 billion a year, 
with increased forces.
    Mr. Delahunt. So add in the component of the civilian side, 
reconstruction.
    Mr. Thier. On the civilian side, I can say that the most 
significant part of our civilian side spending is on spending 
to build the Afghan National Army and the Afghan National 
Police. The administration's 2010 request for that spending is 
$7.5 billion. In addition to that, there is probably roughly 
another $1.5-2 billion for other civilian-side efforts.
    So my guess would be that it is probably about 50-10, maybe 
$50 billion on the military side and $10 billion on the 
civilian side, based upon figures I have seen.
    The Congressional Research Service actually puts out some 
excellent figures on aid totals to Afghanistan, going all the 
way back to the 1980s, that are very instructive.
    Mr. Delahunt. Thank you. Dr. Kagan?
    Mr. Kagan. Congressman, I am not an expert on defense 
budgeting, so I won't hazard a guess on the record. I am sorry.
    Mr. Delahunt. Okay. I think clearly we are hearing from our 
constituents in terms of the costs of the wars, plural. We are 
obviously in the midst of a debate regarding health care 
reform. I have a memory that one of the advisers to President 
Bush made an estimate, I think it was Mr. Lindsey, of some $50 
billion, and that obviously was inaccurate as it turned out to 
be. So I was interested to hear your opinions.
    You know, we talk about, what does success look like? And 
Dr. Kagan, you indicated that you thought Iran had an interest 
in our failure, if you will. First of all, am I correct when I 
say that initially Iran was supportive in our efforts against 
the Taliban, and historically they have had issues with the 
Taliban?
    Mr. Kagan. Yes. Traditionally, Iran has been skeptical of 
elements of the Taliban, although Iran also supported----
    Mr. Delahunt. Thank you. And just one final quick question. 
What would losing look like?
    And I start with Dr. Coll. And by this I mean would it be 
to the advantage of the neighbors--Russia, Iran, Pakistan, all 
of the neighbors in the area--if all of a sudden there was an 
American withdrawal? Would they be pleased with that? Would 
they be happy with that, Dr. Coll?
    Mr. Coll. Only Iran would find it in its interests to see 
the United States fail entirely in Afghanistan and leave the 
region. I think the other countries you listed would prefer a 
stable Afghanistan. Although some of them are ambivalent about 
that being associated with American strategic success, they 
nonetheless don't want chaos.
    Mr. Delahunt. And yet this is despite the history between 
the Iranian Government and the Taliban. They would be pleased 
with a Taliban----
    Mr. Coll. My own view is there is no unitary decision-maker 
in Iran. So there are aspects of the Iranian establishment, the 
civilian Foreign Ministry and so forth that have a view that 
the benefits of stability in the neighborhood outweigh the 
costs of American success. But I think most of the weight of 
Iranian decision-making has more recently concluded that in 
this period of encirclement and confrontation with the United 
States, they need--the benefits of American failure outweigh 
the costs of instability.
    Mr. Delahunt. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from California, Mr. Rohrabacher is recognized for 5 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. The 
cost estimate for sending a significant number of new United 
States combat troops into Afghanistan is between $30 billion 
and $40 billion. Now, after 9/11, when we only had 200 troops 
on the ground at the time that the Taliban were routed--but 
they did arrive with suitcases full of money as well as working 
to try to support those people in the Northern Alliance who 
just naturally would have been against the Taliban--why is it 
not a better strategy for us to buy the good will of the tribal 
and ethnic leaders of Afghanistan, which we could easily do 
with a minuscule amount of that $30-40 billion, provide 
villages with a local clinic, give local leaders enough money 
to help their local people? Why is that not a better strategy 
than spending $30-40 billion and sending in more combat troops 
so that the United States combat troops will do the fighting 
rather than the village militias and the tribal and ethnic 
leaders who have traditionally fought and won the battles in 
Afghanistan?
    Mr. Kagan. Congressman, the reason why I believe that the 
strategy that you are advocating would fail is because when you 
look at the conditions on the ground within Afghan society, 
within the villages that you are talking about, and the balance 
of power on the ground in a lot of these localities, this isn't 
2001. The situation right now is that you have--you have now 
had 4, 5 or 6 years in some places of consistent Taliban effort 
to establish its control and influence over the local 
population.
    Mr. Rohrabacher. Let me stop you there because I have 
limited time. No, they have had 5 or 6 years of incompetence 
and corruption from a national centralized government that we 
have forced upon Afghanistan. But if we would reach out to 
those villages--and I have been in Afghanistan at that level--
if we would reach out to those tribal and ethnic leaders, those 
village leaders, rather than trying to force them to succumb to 
the orders of a corrupt government which they have not even 
voted for--the system that is set up in Afghanistan, they don't 
even vote for their local Congressmen there. They don't have 
local representatives. We have foisted this on them. And of 
course they don't like what we have to offer, and they are 
listening to the Taliban.
    No, the Taliban haven't come in and coerced them. We 
disarmed them, we disarmed the Northern Alliance, and then we 
tried to force a local government and local governance type of 
society into a mold where a Federal system, where a national 
army and national controls were going to take precedent over 
local powers and local decision-making. We have lost because of 
that. Now, just sending 30-40,000 more troops in, American 
combat troops, isn't going to change their frame of mind.
    Mr. Kagan. Congressman, may I address that based on General 
McChrystal's assessment?
    Mr. Rohrabacher. Yes.
    Mr. Kagan. There is a large component of the assessment 
and, I believe, of the strategy that aims to do more or less 
precisely what you are advocating in the sense of going below 
the level of the central government, recognizing that 
provincial governors and district subgovernors are not 
representative of their people, working overtime to address 
that; because I do think we need to press the Afghan Government 
to make those leaders elective positions and address this, but 
in the meantime to use military--U.S. forces, military and 
civilian, to establish relations with local tribal elders, 
local leaders, understand their concerns, shield them when 
necessary from the predatory government, and in other 
circumstances shield them from the Taliban is a core pillar, I 
believe----
    Mr. Rohrabacher. Let me just note they can do the fighting. 
The Afghan people are the most courageous people and brave 
people I have ever met. They are capable of fighting. We 
disarmed the Northern Alliance after the Taliban were kicked 
out in order to establish this central system. We are paying 
the price for that right now. We need to rearm local leaders. 
And we need to buy their good will by rebuilding their country, 
which we promised to do and never did after the Russians, nor 
after they helped us defeat the Taliban.
    I am giving a special order on this tonight for an hour if 
anybody would like to take a look at it. You are all invited. 
Thank you.
    Chairman Berman. This portion of the gentleman's time is 
expired. The gentleman from California, Mr. Sherman, is 
recognized for 5 minutes.
    Mr. Sherman. Thank you. I wonder whether we have failed in 
Afghanistan. We have prevented Afghan territory from being used 
for another major attack against the United States, and we have 
disrupted al-Qaeda there. What we failed to do is to achieve 
those objectives at a cost that the American people are willing 
to sustain over a long period of time. And as Mr. Rohrabacher 
points out, we achieved considerable success in Afghanistan; 
not the kind of total success that brought peace and security 
to every village, with, as he describes it, 400 men on the 
ground.
    The question here is: Why Afghanistan? History, that is 
where al-Qaeda happened to be. History, we have spent 10 years 
there. Therefore, it is the most important place because that 
is where we have been. But putting aside history, why is 
Afghanistan more strategically important, more necessary in the 
war against international terror than Somalia, aside from its 
proximity to Pakistan? I will ask Mr. Coll.
    Mr. Coll. I think all al-Qaeda sanctuaries are not created 
equal. The history of the relationship between al-Qaeda's 
leaders and principal international operators and the Pashtun 
Islamist militias along the Pakistan-Afghan border goes back 20 
years; it is intimate; and indeed Haqqani, who is now one of 
the main Taliban faction leaders, provided the territory and 
the security where al-Qaeda organized its first training camps 
in 1988. So I would welcome the migration of al-Qaeda's leaders 
from that border area to Somalia or Yemen. I don't think that 
they would remain fugitives for very long in those places. So I 
do think that there is something very distinctive about this 
political military territory.
    Mr. Sherman. But that is true of both sides of the 
Pakistan-Afghan border.
    Mr. Coll. It is.
    Mr. Sherman. Not drawing a distinction between Afghan 
Pashtuns and those in Pakistan.
    Let me move on to the next question. Is it true that our 
local commanders are prohibited from cutting deals with local 
warlords, et cetera, and must at every political stage go 
through the Kabul government? Mr. Coll?
    Mr. Coll. I don't know the answer to that.
    Mr. Sherman. Okay. Why do we pay less money to Afghan 
soldiers than the Taliban pays to their soldiers? And what 
would be the effect if we doubled pay, which would be by far 
the cheapest thing we could possibly do of all the things we 
are considering doing in Afghanistan? <greek-l>Mr. Kagan? 
deg.Dr. Kagan?
    Mr. Kagan. Well, we could certainly increase the pay. We 
can recruit as large an Afghan Army as you want right now. The 
constraint on that has been the unwillingness, first, of the 
Bush administration, and then of this administration, to commit 
to larger end strength goals for that army. The problem is not 
that we can't find the troops for it.
    Mr. Sherman. I am not even saying the army has to be 
larger. Right now we recruit them, we train them, they outbid 
us.
    Mr. Kagan. But we are only going to be dealing with the 
134,000 people that we are talking about, whatever their 
salaries are.
    Mr. Sherman. Yes. But I mean we recruit them, we train 
them, Taliban gets their services, we go recruit somebody else. 
It is like we are the farm system.
    Mr. Kagan. With respect, sir, that is not the way it works 
with the Afghan National Army. The Afghan Police are corrupt 
and infiltrated, but the Afghan National Army has been fighting 
with very little infiltration very effectively against the 
Taliban.
    Mr. Sherman. And very little desertion?
    Mr. Kagan. Desertion rates are--I don't want to quote 
numbers off the top of my head. I would characterize them as 
reasonable in this kind of conflict.
    Mr. Sherman. Can we achieve the nondestabilization of 
Pakistan and prevent Afghanistan from being a launching pad for 
attacks against the United States without achieving peace and 
security and prosperity throughout all of Afghanistan's 
provinces? I will ask for a very quick answer from all three 
witnesses.
    Mr. Thier. I think the answer to that is I am not sure 
about all of Afghanistan's provinces, but fundamentally if the 
political balance in Afghanistan remains with the Taliban, then 
I think that it will be impossible for us to prevent the 
destabilization either of Afghanistan or, indeed, of Pakistan.
    Mr. Sherman. I didn't even ask it. Obviously, if the 
Taliban--it looks like my time has expired.
    Chairman Berman. Yes, it has. The gentleman's time has 
expired. And the gentleman from Texas, Mr. Paul, is recognized.
    Mr. Paul. Thank you, Mr. Chairman. It seems like we have 
had now a war going on for 8 years, into the 9th year, and from 
the discussion it looks like we are searching for a 
justification for it. What is the reason we are there? I think 
we got the cart before the horse. We have been fighting all 
this time, and it means that it isn't a management problem, it 
is a policy problem of how we got there, why we are there, and 
what we are doing. And besides, this type of debate about 
management, I can't imagine this type of debate going on in 
World War II. You know, we knew who enemy was, we declared war, 
the President said he is the Commander in Chief, told the 
Congress what he needed.
    Now that isn't an argument for the Congress not paying 
attention, it is an argument against the way we go to war. And 
it looks like we have accepted this notion that perpetual war 
leads to perpetual peace. And we satisfy the military 
industrial complex and the special interests and all these 
motivations just to stay in war, endlessly.
    But even these 8 years, I don't see where the success is. 
Men die, thousands of Afghans are displaced and die. It costs 
$0.25 trillion and we are still finding out what are we there 
for? Oh, if the Taliban takes over, who we used to get along 
with quite well, if they take over, all of a sudden al-Qaeda is 
going to be there and there is going to be another 9/11. This 
is making the assumption that 9/11 couldn't have occurred 
without these training camps in Afghanistan. Do you think those 
19 guys went over there and did push-ups in those camps? There 
is no way. There is no way they were there doing those things.
    The report when they studied 9/11 they said, well, there 
was a lot of planning going on in Germany, a lot of planning 
going on in Spain. And there were--15 of them were Afghans. I 
mean if somebody really wanted to, I will bet they could have 
talked the American people into bombing Saudi Arabia. I mean, 
15 were Saudis. I imagine under those circumstances the 
American people and the Congress could have been talked into 
bombing Saudi Arabia under those conditions.
    So I just don't see how we can continue to do this and come 
up with any sensible policy, because we never challenge, we 
never question whether preemptive war is a good strategy. And 
this is what this is all about, preemptive war. Starting wars, 
saying it is preventative.
    But this is a completely un-American approach to fighting 
wars, because under the original system, the people got behind 
the war, declared the war, knew who the enemy was, and we 
didn't come up with these strategies. Do we need 40,000 or 
80,000 people? And who should we give the money to? Should we 
give it to this group?
    Why don't we ever ask the question--and this will be the 
question that I will leave with you--why don't we as a Congress 
and the administration, the former administration as well as 
this one, why don't we ask the question, what is the motivation 
for somebody to attack us? And I don't think it is ever really 
asked, because I think there is a different answer than the 
assumption, oh, they hate us. They hate us for our freedoms and 
our wealth and this. And I don't believe that for a minute.
    I think the people in Afghanistan, the large majority, no 
matter what the reports are from the administration, our puppet 
administration, most people want us out of there. They don't 
want us in Pakistan. The people in Pakistan don't want us 
there. People in Iraq don't want us there. It is occupation.
    So my question is: Why is that never talked about or why is 
it dismissed so easily, if indeed you study and you find out 
that people who are willing to sacrifice their life to make a 
point--it is because we are seen as foreign occupiers, just as 
the Soviets were seen as foreign occupiers, just as we joined 
those individuals who wanted to throw out the foreign occupiers 
in the past.
    And yet now we are. We learned nothing from history, both 
ancient history or even recent history. Why don't we pay more 
attention to the true motivations behind somebody who wants to 
commit suicide terrorism against us? Anybody care to answer?
    Chairman Berman. In 20 seconds.
    Mr. Kagan. Congressman, in 20 seconds I can only tell you 
that some of us do pay a great deal of attention to what the 
ideology is that drives al-Qaeda and affiliated groups to try 
to attack us. It has been articulated in tremendous detail in 
multiple books. It goes beyond not liking us because of our 
wealth and a variety of other things, and it has to do with the 
struggle within Islam that they see us participating in, 
whether we are present there or not. It is a very, very 
sophisticated strategy. It is a very, very sophisticated 
ideology. And it is extremely clear on what their intentions 
are, and why.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California, Ms. Lee, is recognized for 5 
minutes.
    Ms. Lee. Thank you very much, Mr. Chairman. I see that I am 
not alone with my concern for an increase in troop level for 
Afghanistan. Mr. Rohrabacher, Mr. Paul and others are really, I 
think, laying out some of the same concerns that I have. So I 
am glad this is beginning to become bipartisanship.
    Let me ask you--because I am clear that some believe that 
without a real credible and legitimate Afghan partner we really 
can't succeed. And we have also heard that we must turn things 
around within the next 12 months or face failure. So let me 
just ask you if that is realistic. Can we turn things around in 
terms of a level of reform within the Afghan Government within 
the short term? And is that enough to provide the Afghanistan 
people with a legitimate alternative to the Taliban?
    And then secondly, I would like to ask--and any of the 
panelists can respond--about the poppy fields and the farmers. 
And in fact, is there enough focus on ensuring an alternative 
agricultural product and economic development strategy for 
farmers?
    Mr. Thier. Let me take the first question, because I think 
it is very poignant. It was famously said about Vietnam that it 
was not a 10-year war but ten 1-year wars. And I think that 
when you look at the application of strategies to reform the 
Afghan Government and to create greater degrees of capacity and 
legitimacy, to think about those challenges in 1-year terms is 
quite dangerous, because this is very difficult and intensive 
work.
    I have been working with the Afghan Government for the last 
8 years on trying to reform the justice system and develop a 
new system of rule of law and the constitutional process. I 
think that the good news is that among the Afghans, there is a 
constituency for reform. There are a lot of people who very 
avidly want to improve their own capacity and to improve the 
capacity of the government and of society to deal with the 
challenges that they face.
    But at the same time, even in the best of times in 
Afghanistan, which is one of the poorest countries in the 
world, that government administration was always weak and 
fairly underdeveloped. And I think that the response to your 
question is that we can do significant things in 1 year to 
improve the situation. We can't expect dramatic results in 1 
year.
    Eight years ago I was part of a group that met with State 
Department officials, United Nations officials, NATO officials, 
to talk about how to move forward in Afghanistan. And one of 
the recommendations that we had was to invest in a civil 
service academy, to invest in the training of Afghans so that 
3, 4 years down the line, they would be able to take over the 
sorts of things that we were looking at the United Nations to 
do. Unfortunately, that academy still doesn't exist.
    Now, we can lament the failures of the last 8 years, and it 
is important to recognize them, but we stand here today 
thinking about how to create a better future for Afghanistan, 
and it is still possible to invest in these things.
    Ms. Lee. So does an increase of, say, 20, 30, 40,000 
troops, do you see at the end of a year the progress had been 
made so that we can begin to exit out of Afghanistan?
    Mr. Thier. I believe that apart from the troops, we need to 
focus much more intensively on this effort to create government 
accountability and capacity, particularly at the subnational 
level. And so my concern and the work that I have done is much 
more focused on how we do that and how we use the capacity that 
exists in Afghanistan toward our common ends. And so that is 
how I would answer it.
    Ms. Lee. Dr. Kagan.
    Mr. Kagan. I would like to echo those concerns and say you 
have put your finger on a very important number of questions. 
And I think that something has to be stated very clearly here. 
The administration--you have a declassified version of General 
McChrystal's strategy basically. I am not aware that there is a 
declassified version or even a classified version of Ambassador 
Holbrooke's strategy or Ambassador Eikenberry's strategy or the 
Secretary of State's political strategy for dealing with this 
situation. And that is a gap. And we need to know what the 
administration's political strategy in this crisis is going to 
be.
    Of course it is not in General McChrystal's plan, because 
it is not his remit to develop a political strategy. I believe 
that you can develop a political strategy. I believe this 
administration could do so. And I believe that doing so could 
be transformative, although probably not in a year.
    But I think that as we challenge, as we get involved in 
this debate, the question of 40,000 or 80,000 troops and so 
forth is not really the question that we should be focusing on. 
General McChrystal has done his homework. This is what is 
required to do what he needs to do. What we need to see is the 
homework for the rest of the effort, which is the political 
strategy to go along with this.
    Ms. Lee. Thank you. If I get a second round, I would like 
to get a response to the poppies.
    Chairman Berman. Okay. Thank you. The time of the 
gentlelady has expired. The gentleman from Florida, Mr. 
Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. Dr. Kagan, as a 
result of having been on the ground with General McChrystal in 
Afghanistan for the last several weeks, I know you have got 
particularly good insight as to the focus of the report.
    Because there has been much said about nation building, 
often with negative connotation, I am wondering if you could 
share with us the difference between nation building and the 
counterinsurgency plan that has been articulated by General 
McChrystal in his report.
    Mr. Kagan. Absolutely. And you raise a key point there. The 
objective of General McChrystal's strategy is not to build up 
the nation of Afghanistan. The objective of General 
McChrystal's strategy is to defeat insurgent organizations 
linked with al-Qaeda in order to achieve the President's 
objectives and maintain regional stability. In order to conduct 
an effective counterinsurgency campaign, you have to address 
the problems of illegitimacy of the government that fuel 
insurgency. And it is important to note in the discussion in 
this town people have gotten a little confused. The legitimacy 
of the government is not an input into a counterinsurgency 
campaign. It is the output of a counterinsurgency campaign. If 
the government were seen as legitimate, you wouldn't have an 
insurgency.
    So what an insurgency campaign has to do is to build a 
certain degree of legitimacy. Because if you want to ask the 
question, Could we prevent al-Qaeda and the Taliban from 
returning to Afghanistan without establishing any kind of 
stable or driven Afghan Government, the answer is sure. How 
many American troops do you want to keep there for how long?
    If you actually want us to be able to leave Afghanistan at 
some point and leave it in a condition where it will not once 
again become a safe haven for terrorists and destabilize 
Pakistan, then you have to be looking at establishing some kind 
of government that has basic legitimacy. And that is the 
objective, that is what I think the objective should be of our 
strategy. And I think if you read the assessment, it is pretty 
clear that that is where General McChrystal is headed as well.
    Mr. Bilirakis. Thank you. I have one more question. General 
McChrystal's report warned about India becoming too involved in 
Afghanistan, presumably because such involvement antagonizes 
Pakistan. And from the testimony we also know that Pakistani 
intelligence services still consider some Taliban groups to be 
an asset and that the ISI provides support to the Taliban.
    At the same time, India would like to get more involved in 
the effort to stabilize Afghanistan. Like us, India sees the 
Taliban as an extremist threat that will undermine Afghanistan 
and the region. So what is the United States doing and what 
should we do about India's efforts to play a role in the Afghan 
stabilization effort?
    Mr. Coll. I think that question points to the centrality of 
what Fred was saying earlier about the need for a really 
ambitious and creative and hardworking political strategy that 
encompasses these regional competitions as they play out in the 
war.
    I think the specific answer is that there is a role for 
India in Afghanistan and supporting its stability. The problem 
is as much optics as substance. But it requires conditions in 
which the legitimate concerns of the Pakistani Government and 
Army about the presence of Indian forces in Afghanistan can be 
dealt with in a political context, in a diplomatic, negotiated 
context in which we pay attention to their concerns, but insist 
that they be resolved through peaceful negotiations, not 
through the support of proxy militias. And that is achievable. 
I think that was the reason why the administration brought the 
Presidents and the delegations from Pakistan and Afghanistan 
together in Washington earlier this year, tried to start a 
process that they hoped would build confidence and address this 
very question. But that has to be sustained. It has to be 
worked every day. It is very complicated. It is not easy. But 
it is where the heart of some of the structure of instability 
is located in this conflict.
    Mr. Thier. If I can add to that, I think that it is 
important to have a historical perspective about Afghanistan. 
Afghanistan has not always been at war. And when it is at 
peace, it is because the regional competition that Steve 
alluded to becomes regional cooperation. And what we need to 
foster much more for Afghanistan is an environment of regional 
cooperation.
    One of the reasons that Pakistan originally supported the 
creation of the Taliban was because they wanted to open the 
land route through Afghanistan to be able to trade with Central 
Asia, the Middle East and Europe, a route that had been closed 
for decades due to the presence of the Soviet Union.
    Similarly, the Iranians and the Pakistanis, as well as the 
Indians, have a tremendous amount to gain from potential 
regional economic cooperation.
    And so I think that if we think about the problem of 
regional competition in Afghanistan in a way that we can help 
to foster the ways that that becomes regional cooperation--and 
certainly the Indians play a key role in that--then everybody 
will benefit.
    An example of that is the pipeline deal between 
Turkmenistan and Afghanistan, Pakistan, and now India. It may 
not go forward, but it establishes the basis for potential 
regional cooperation which puts everybody in support of Afghan 
stability instead of putting everybody in support of proxies 
that cause Afghan instability.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Virginia, Mr. Connolly, is recognized for 5 
minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And I am going to 
ask a series of questions and beg for concise answers. What, 
Mr. Coll--we will start with you--bottom line, what is and/or 
should be the United States objective in Afghanistan?
    Mr. Coll. An Afghan Government that is stable enough to 
prevent coercive revolution by the Taliban and that is aligned 
with the American project of dismantling al-Qaeda.
    Mr. Connolly. Mr. Thier?
    Mr. Thier. I like Steve's answer.
    Mr. Connolly. Dr. Kagan.
    Mr. Kagan. Works for me.
    Mr. Connolly. All right. Well, that sounds like a 
reasonable goal. But you are talking about a country that in 
terms of even a sense of national identity, literacy, the writ 
of a central government being able to go into remote parts of a 
very challenging geography--historically, you cited a previous 
era in which such a government arguably existed, but that is a 
long time ago, and an awful lot of history has intervened. It 
sounds to me like nonetheless--I was there in February--that 
sounds like a tall order. Is that an achievable objective 
within some kind of realistic time frame?
    Mr. Coll. I believe it is. I believe that absent the 
momentum that the Taliban have gained in the last 18 months, as 
one of your colleagues pointed out earlier, that minimum 
condition has already been achieved by the international 
community in Afghanistan. It is a question of sustaining it and 
developing it in a way that doesn't require a large investment 
of international combat troops.
    That is the question. Is that achievable in a reasonable 
time, a transition to an Afghan state and an Afghan security 
forces that can carry this forward? I believe it is. I believe 
there are risks in all directions. But the risks of not 
attempting it, not making those investments, are greater than 
the risks of undertaking it.
    Mr. Thier. I believe that the Afghan state has to reflect 
Afghan society. There is no question that Afghanistan is 
capable of stability. And the way that they have achieved that 
in the past is through a condominium of having a weak but 
coherent central government that takes on certain tasks, 
attempts to establish a monopoly over violence, and does the 
big sorts of projects that can't be done at the local level, 
such as building major roads and those sorts of things.
    At the same time, you have Afghan society that even through 
the years of war continued to orchestrate and generate its own 
capacity to do small-scale work, to improve irrigation, to 
build schools and things like that.
    And so simultaneously focusing on those bottom-up 
capacities and creating an Afghan Government that can do the 
big parts, I think is a formula for stability in Afghanistan.
    Mr. Connolly. Dr. Kagan?
    Mr. Kagan. In the interests of being concise, I will agree 
with both of my predecessors.
    Mr. Connolly. Okay. Let me then start with you on this 
follow-up question. Again, that all sounds good, but we now--
let me give you a devil's advocate point of view. We now have a 
government that is delegitimized because of fraudulent 
elections. We have former U.S. Ambassadors and now former U.N. 
officials so claiming, whether right, wrong, or indifferent, 
the damage is done in the eyes of the international community 
and arguably for a lot of Afghans. You know, a stable Afghan 
Government, we don't have it right now, and we have got a 
central government that all too often in Afghanistan itself is 
seen as not much more than a plutocracy, you know. And when 
they show up, it is to shake you down, not to protect you.
    And so it seems to me that given the current reality, the 
United States does not have a partner, a viable partner that 
would meet the conditions you all have laid out.
    Dr. Kagan?
    Mr. Kagan. Running quickly through the points. I would say 
first of all, this Afghan Government was losing legitimacy long 
before the elections because it wasn't providing services to 
people and was seen as a plutocracy. The elections are data 
point in legitimacy for this government, but they were not 
dispositive to its legitimacy before and they won't be 
dispositive going forward. Afghan people will look to see what 
this government is doing. Is it now doing what it needs to do? 
Absolutely not. And we have to address that. There is reason to 
believe historically that we can do this because we did it in a 
parallel situation in Iraq where the problem was not so much 
plutocracy, although Lord knows there was that too.
    The problem was you had officials in the Iraqi Government 
actively running death squads that were fueling the sectarian 
civil war. We were able to address that problem. And you don't 
have that going on anymore, which has allowed Iraq to move 
forward. I believe that a modification of that approach can 
succeed in Afghanistan if it is properly resourced both on the 
military side and on the civilian side.
    Mr. Coll. One point very quickly. This election--the 
allegations of fraud are very serious. But things are not as 
bad as American discourse sometimes reflect. Consider the 
opposition leader. He has not thrown a rock through a single 
window, there is nobody in the streets, there is still a very 
pragmatic attitude in Kabul. They want an opportunity to 
negotiate their own way forward and their own reform package. 
And I think that is conceivable.
    Mr. Connolly. I thank the chair. Thank you all.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from South Carolina, Mr. Wilson, is recognized for 5 
minutes.
    Mr. Wilson. Thank you, Mr. Chairman. And I would like to 
commend our three witnesses today. This is one of the best 
hearings I have been to in my 8 years here. It is remarkable 
because, Mr. Thier, as you pointed out, people are not making 
up facts. All three of you are being very candid. I have been 
here and heard made up facts. So thank you. In the context, I 
want to point out that I agree very much with President Barack 
Obama. He gave a speech to the veterans of foreign wars in 
Phoenix on August 17th, just virtually 2 months ago this year 
and he said but we must never forget this is not a war of 
choice. This is a war of necessity. Those who attacked America 
on 9/11 are plotting to do so again.
    If left unchecked, the Taliban insurgency will mean an even 
larger safe-haven from which al-Qaeda would plot to kill more 
Americans. So this is not only a war worth fighting, this is 
fundamental to the defense of our people. President Barack 
Obama further stated, going forward, we will constantly adapt 
to our tactics to stay ahead of the enemy and give our troops 
the tools and equipment they need to succeed. And at every step 
of the way, we will assess our efforts to defeat al-Qaeda and 
its extremist allies and to help the Afghan and Pakistani 
people build the future they seek. And I just want it clear 
that I just think the President was right on point just 2 
months ago virtually today.
    I would like to thank Dr. Kagan for being here. He and his 
wife have been very brave to spend an extraordinary amount of 
time in Afghanistan. Your vision has proven correct and I 
appreciate it. I would like to ask you after months of 
insisting that the Taliban and al-Qaeda were interlocked, the 
administration now appears to be reversing its stand on the 
subject. Is it a false distinction to make up that we can 
separate the Taliban from al-Qaeda or that we can bribe Taliban 
militants as the President is said to be considering?
    Mr. Kagan. The Taliban and al-Qaeda are multiple groups. 
There is not one Taliban. There are multiple Taliban groups for 
that matter. But I think, as Steve pointed out, they are linked 
genetically as well as ideologically. And you can go back and 
read the discussion. There is an al-Qaeda and Afghanistan 
organization by the way. It is very small. It is not a major 
threat. But it did lay out very articulately several months ago 
exactly how it fits itself into the Taliban command structure 
within Afghanistan to fight against Americans.
    No, I don't think that these groups can be separated from 
one another or bribed or anything in the context of an American 
withdrawal that they will paint as the most significant 
humiliation of American arms in half a century or longer and 
that will powerfully fuel their arguments for the inevitability 
of their success.
    Mr. Wilson. And it is just so frustrating. We have been to 
hearings before where you would think that Taliban and al-Qaeda 
had membership cards with photo IDs and membership lists and 
they have regular conventions and meetings. Thank goodness you 
are here today. Thank you. Mr. Thier, I want to let you know 
The Institute of Peace--I have had the privilege of working 
with your organization in Iraq and in Afghanistan and it makes 
a difference. For you and Mr. Coll, we have taken steps to 
expand the Afghan national security forces to be self-reliant 
and laid the fight against the insurgency. How do we measure 
the unit progress and activity? In doing so, how do we 
determine which units are successful or not?
    Mr. Thier. Thank you. And I should say I thank the U.S. 
Congress for its support of the U.S. Institute of Peace. I 
think that our ability to assess the progress of the Afghan 
national Army and the Afghan national police should be based on 
performance. In other words, outcomes as opposed to outputs. We 
don't want to count the number of people that we have put 
through training programs. We want to see how effectively they 
are able to operate. In that sense, I think we have a good-
news/bad-news story. On the army side, we have seen tremendous 
willingness of the Afghan military to fight cohesively. They 
are not independent yet, but some of the units are working 
toward that.
    On the police side unfortunately we have the opposite. From 
the beginning of the creation of the Afghan national police, 
they were a problem force. And as they have grown, that hasn't 
improved. The U.S. Institute of Peace has a report out recently 
about the problem of police reform and I could go on longer if 
given the opportunity.
    Mr. Wilson. And I would like to point out that it is so 
inspiring to me when I meet with the military officers, these 
are former mujahideen successful against the Soviets, General 
Wardak. And so I have great faith in their future. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California, Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. Thank you to our 
wonderful panel. You know a lot more than many of us do, but we 
also have some places we want to probe. Earlier this year, 
along with Congresswoman Lee and many other members, I sent a 
letter to the White House asking for clarification on policies 
for Afghanistan. And today, sadly, many of the issues have yet 
to be resolved. We still lack a clear mission or timeline, the 
projected financial and human costs are unknown and the role of 
the U.N. and other international partners is undefined. The 
cost of indecision obviously is very high and we don't want to 
rush to judgment. But after 8 years, I don't think we are 
hardly rushing to anything in Afghanistan regarding policy. I 
would hope that somewhere in this policy discussion--and this 
is what I would like you--because I want to change this a 
little bit so we are not all asking exactly the same question.
    I would like to discuss a little bit changing the 
investment we make and the efforts we are taking in Afghanistan 
from 80 percent military, 20 percent humanitarian and 
economical help to maybe reversing that. Your opinions, what 
would that do? I consider that smarter security. And where 
would we get if we still kept a presence but put most of our 
effort into humanitarian and economic help? And the help I 
believe the Afghan people really want. Start down here with Dr. 
Kagan.
    Mr. Kagan. What I would like to do is actually reframe the 
way you have established the dichotomy a little bit. Not so 
much in terms of funding, but in terms of effort. There is not 
a war in Afghanistan because Afghanistan is poor. This is not 
about poverty. That is not why they are fighting. And we are 
not going to develop our way out of this war. In fact, 
unfortunately, that was actually a large part of the strategy 
after 2001. It was relatively peaceful and the development 
agencies came in and they did what development agencies do. And 
that did not prevent the resurgence of the Taliban despite 
their efforts and there was a lot of international money that 
went into that. It wasn't just American money. What Afghans are 
looking for is not so much development projects. What they are 
looking for is governance. What they are looking for is 
security first of all, rule of law, a justice system that is 
functional. Those are the things that they demand from their 
government that they are not getting. And we have not paid 
remotely enough attention to addressing those concerns over the 
last 8 years at any time. And I would submit that if we don't 
start paying a lot of attention--and I think General McChrystal 
understands this and the embassy understands this. But if we 
don't really start paying attention to that, then the military 
strategy by itself will not succeed.
    Ms. Woolsey. Let us just go up the line and--okay?
    Mr. Coll. I would agree with Fred's comments and just would 
emphasize that since 9/11, since 2001, since the fall of the 
Taliban, we have had some success with our military efforts and 
some success with our development efforts. But over time those 
investments have deteriorated because we failed to grapple with 
sustainable Afghan politics. And that is for Afghans, of 
course, to lead, but for us to support and recognize as 
central. Development cannot proceed in a roads and dams model 
in a country like Afghanistan. And now, especially after this 
election, there has got to be an extraordinary concentration on 
national reconciliation and reintegration projects that are 
Afghan defined but that are primarily political.
    If we go back to building roads and dams and define our 
economic and humanitarian support that way, we are just going 
to repeat the cycle that led us to this intersection.
    Ms. Woolsey. Well, Mr. Thier, maybe you can add a dimension 
to this. Can we force good governments through the military? I 
mean, isn't there a smarter way to do this?
    Mr. Thier. I think the answer is no. I agree very much with 
the premise of your question. And I think even 
counterinsurgency says that 80 percent of the challenge should 
be a civilian and not a military challenge. I think one of the 
fundamental problems that the United States faces is that we 
have so many resources on the military side and yet our 
civilian capacity to undertake these challenges at USAID and in 
the State Department are far under resourced. And so I do think 
we need to rebalance our efforts if we are going to be more 
effective on the civilian side. And I think that is absolutely 
right because ultimately these questions of security don't 
revolve around guns but revolve around broader issues.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from Nebraska, Mr. Fortenberry is recognized for 
5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman, for holding this 
hearing. I believe this hearing is actually a forerunner to a 
much larger and aggressive debate that actually should be 
happening right now in Congress. And I thank you, gentlemen, 
for appearing today. Mr. Coll, you stated that the stability of 
Pakistan is key to the stability of Afghanistan. Dr. Kagan, you 
reversed it or emphasized the stability of Afghanistan actually 
key to the stability of Pakistan. So clearly, we have got two 
essential variables in this geopolitical equation. What is the 
likelihood that those will converge in a timely manner for us 
to reach these objectives with minimum loss of life and with 
ultimately a sustainable Afghani society and a sustainable 
Pakistani society?
    The second question I am going to have after this one is 
what is the international resolve here. This is not a U.S. 
problem alone. You hear a few weeks ago several--I think it was 
6--Italian soldiers were tragically killed and I think it was 
the prime minister who said it is time to come home. You have 
heard some rumors perhaps that the Canadians are under 
reconsideration here. The British are sending in 500 additional 
troops. That is nice. But we are looking at the potential of 
40,000 more. I want your perspective on what is the 
international community's resolve and why there continues to be 
this disproportionate burden sharing by the United States in 
light of what is at stake for stabilization not only in that 
arena, but really for the future of the stabilization of not 
just Afghanistan, but the entire international community?
    Mr. Kagan. I would like to just start by highlighting an 
interesting fact about the moment in history that we stand at 
right now from the standpoint of a war that is a two-front war 
that occurs on both sides of the Duran Line. Pakistan has made 
remarkable progress in its fight against its own internal 
Taliban groups which are connected in complicated ways even 
though they are separate from the Taliban groups that we are 
fighting. And it is really--over the last 8 months, when you 
look at the operations that the Pakistan military has conducted 
in Bajaur and Mamund areas in the northern FATA in Swat, 
clearing the TTP out of there and the TNSM out of there. Now 
they appear to be mobilizing for a major clearing operation in 
South Waziristan.
    The enemy in that area has only one place to go and that is 
Afghanistan. And they will find American forces and Afghan 
forces on the other side of the border able to address any 
possibility they might have of establishing a real safe-haven 
where the Pakistanis can get at them. Your question is very 
timely. But the short answer is, if you were going to pick any 
time over the last 8 years to say, well, this is hopeless, the 
Pakistanis won't do their part and we need to just leave, this 
would be exactly the wrong moment to do it. Because the last 
thing we want to do right now is undercut the resolve of the 
Pakistani Government to go after an organization that 
fundamentally threatens its stability and is linked with 
organizations that aim at us and threaten the stability of the 
entire region right as they are gearing up to go after it and 
when they need our help to do it.
    Mr. Fortenberry. Thank you. Mr. Coll, did you want to 
respond to that? Plus the other question is the international 
community's resolve in this regard.
    Mr. Coll. I agree with what Fred says and I would only add 
there is a discourse underway among Pakistani elites in their 
constitutional system about how to fashion their national 
security doctrine and define their interests. They created the 
Frankenstein monster of the Taliban in substantial respects. 
They are now having a debate about whether they should unplug 
that machine and try to normalize relations with India, 
modernize, join the international community. If they are 
confronted with a long-running Taliban insurgency in both their 
own country and across the board in Pakistan, they are unlikely 
to make the choices that I think are in their own best 
interest, but also in ours. So I do think it is a critical time 
and I do believe that a stable Afghanistan is a necessary 
component of that evolution.
    International resolve has been sort of zigzagging since 
2001. The pattern is familiar. Anglo American countries like 
Canada have taken more casualties per capita than at any other 
conflict in their history since Korea, I think, is correct in 
Canada's case. The Afghan war looms very large in these 
countries. And I think in the case of the Canadians and the 
Australians and the Brits, we should be as impressed by their 
resolve as we are concerned about sort of the politics of easy 
defeatism in some other capitals.
    I do think NATO as an institution will recognize--
recognizes that its future and its interests lie in persistence 
if Americans are leading and that if we do lead, we will find 
an adequate array of partners to get through this next 3 or 4 
years.
    Mr. Fortenberry. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from Texas, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Chairman, to the ranking member, this is a 
crucial hearing. And I thank the individuals, witnesses who 
have come. As a member, I would almost want a couple of hours 
on this can I guess we will have to continue to self-educate 
ourselves. I have engaged with Afghanistan. I co-chair the 
Afghan caucus with one of my colleagues and started with Afghan 
probably shortly after the 2002 war, if you will, beginning in 
2002. And seeing some progress where women were elected as 
parliamentarians, where schools were open, and, of course, we 
don't see that as we speak. But there is also something called 
collateral damage, what, 40,000 plus troops, just because of 
the nature of war will do. There is the question of building a 
generation of haters of the United States because of that 
collateral damage.
    And there is a question of whether or not there is even a 
real exit strategy that we can contend with. We know that the 
White House is engaging in that. I thank you, Dr. Kagan, for 
acknowledging the treasure if you will of the Pakistani people 
and what the Pakistani military is attempting to do. I hope 
that as they are debating the enhanced Pakistan legislation 
that they will recognize that we are in partnership with them 
even though we respect the sovereignty of the Parliament and I 
hope that the military doesn't feel that it has to continue to 
undermine the efforts to help the Pakistan people. I hope they 
understand that we respect their sacrifice. But my question 
with the backdrop of Vietnam and the idea that Afghans are 
quite different from the Iraqis, let me ask you, Mr. Thier, 
because I am seeing the word--I have not Googled you, but I am 
seeing ``peace'' and I am not understanding your perspective on 
this. How do you define Taliban?
    Mr. Thier. Well, I think that is an interesting question, 
of course, because the Taliban is a myriad of groups. We have 
the Taliban that we saw ruling Afghanistan in the 1990s and 
then we have what has emerged as what many people refer to as 
the neo Taliban, which is a network of insurgent groups, 
including Mullah Omar's Taliban as well as Hekmachar and----
    Ms. Jackson Lee. And they are like spinoffs, correct?
    Mr. Thier. Yes, they are spinoff groups. And of course----
    Ms. Jackson Lee. And they are people who have fathers and 
brothers and husbands in villages that may be called Taliban?
    Mr. Thier. Indeed.
    Ms. Jackson Lee. Because of their particular beliefs.
    Mr. Thier. And one thing that you hear----
    Ms. Jackson Lee. And they may be leaders in their villages 
and they may not be intending to do harm to the United States?
    Mr. Thier. Well, I think it would be wrong to say that 
anybody who is now associated with the Taliban is directly an 
enemy of the United States, but that is not to say that the 
Taliban leadership and the overall ideology of the Taliban 
isn't fundamentally opposed to our security interests.
    Ms. Jackson Lee. That is fair enough. That is leadership. 
We are talking about adding 40,000 more troops per General 
McChrystal. And the sense I get of the three witnesses here, 
that there is not a divide amongst you. My concern is that very 
point, that Taliban in some instance, the leadership is 
untoward and wants to do harm. But they are also maybe 
characterized and I am not a Ph.D. Expert on this, but maybe 
characterized as neighbors. What will be the impact of an 
insurgent action that has enormous collateral damage, 
juxtaposed against Afghans who fought for 20 years and would 
have fought longer, Russia, and I think Russia was the last 
group standing. And I am going to end my question here so I can 
get an answer from Mr. Coll and Dr. Kagan. There is no exit 
strategy and we have collateral damage and all we are creating 
is another unending war. Dr. Kagan?
    Mr. Kagan. Congresswoman, the strategy is a strategy that 
has an exit strategy. It may or may not succeed. But it is not 
a strategy for an endless war. It is a strategy that----
    Ms. Jackson Lee. May not succeed. Thank you. Mr. Coll. I am 
sorry--is that correct? Am I saying it correctly? You only have 
23 seconds.
    Mr. Coll. Close enough. Yes, I think there is an exit 
strategy which is to transfer authority to the Afghan national 
security forces and withdraw from combat as quickly as 
possible.
    Ms. Jackson Lee. And I thank you. And I would appreciate if 
that was our first approach, that we ramped up the diplomacy, 
that we did counterterrorism and not insurgency, that we 
trained the Afghans, that we got a better government because I 
can tell you what General McChrystal, with all due respect, is 
proposing is an unending war that will never end or we leave in 
defeat. I yield back.
    Chairman Berman. The time of the gentlelady has expired. We 
are going to have votes very soon. But I think we will have 
time for our--Mr. Burton, you are recognized for 5 minutes.
    Mr. Burton. My colleague, Mr. Inglis, would like some time. 
So I am going to try to cut this short. First of all, I would 
like to ask you, Mr. Chairman, about you working with 
Representative Skelton, chairman of the Armed Services 
Committee, to try to get General McChrystal before the 
committee. I think it would be very important to hear----
    Chairman Berman. Will the gentleman yield?
    Mr. Burton. Yes, sir.
    Chairman Berman. I spoke to that I think when you were not 
in the room. My thinking now is that they definitely should be 
here, but I think it should come after the administration has 
made its decision, and that becomes the basis for questioning 
and challenging and all of that. So I think that is the logical 
time frame. And once that decision is made, that is our first 
order of business is to make that happen.
    Mr. Burton. I understand the Chief Executive makes that 
decision, but I would differ with you on having him here 
before. But that is your decision. You are the chairman. I 
would also like to ask you how you are coming along with your 
very fine bill that deals with sanctions on Iran. I think you 
said we are going to have it done in August, September----
    Chairman Berman. No, no, no. You know what I said. I said 
October.
    Mr. Burton. Okay. What is today's date, Mr. Chairman?
    Chairman Berman. It is 2 weeks before the date of the 
markup.
    Mr. Burton. Thank you, sir. I am looking forward to that. 
Let me just say to the witnesses, I really appreciate your 
being here and I think you acquitted yourselves very well 
today. I just want to ask a question. Where are the Taliban and 
al-Qaeda getting their money? Are they getting it from the 
Persian Gulf states? Are they getting it from people in 
Pakistan, Saudi Arabia? Where are they getting their money?
    Mr. Kagan. Yes, they are getting their money from many 
sources and this is a very important point that goes to the 
question that was raised earlier about the opium trade. They do 
receive--I believe that they receive trade from Arabs outside 
of the region. They do receive assistance from the Pakistani 
elements of the Pakistani military I believe. But a key source 
of revenue for them is local taxation. And that is, in fact, 
the way that they make their profit off of the opium trade, 
which is important.
    Mr. Burton. They get a rake-off from that?
    Mr. Kagan. Is not a rake-off. It is taxes. And they will go 
down and tax the locals. And they make a lot of money off of 
that.
    Mr. Burton. You say there are elements in the Pakistani 
Government that are giving money to the Taliban. The government 
is supposed to be fighting the Taliban in the military. Can you 
give us more of an insightful view into that real quickly?
    Mr. Kagan. Sure. The Pakistani Government is fighting two 
Taliban groups that have been threatening it, the TTP and the 
TNSM in the FATA and the northwest frontier province. They 
support, I believe, that the Pakistani elements--the Pakistani 
military supports the Quetta Shura Taliban under Mullah Omar 
and Haqqani network operating in eastern Afghanistan. So there 
are different Taliban groups and the Pakistani military has 
taken different approaches to dealing with them.
    Mr. Burton. Well, you would say that the Pakistani 
Government and the military are supportive of our efforts over 
there in total?
    Mr. Kagan. On balance, the policy of the Pakistani 
Government and the military and their strategy is supportive of 
our efforts. I think there are elements within the military 
that are not supportive of the efforts.
    Mr. Burton. With Iran on the west and Pakistan on the east, 
I sure hope that you fellows' assessment is correct in that we 
are making the right move and I hope the President does make 
his decision very quickly. And with that, Mr. Chairman, I would 
like to submit my entire statement for the record and yield my 
time to Mr. Inglis, and plus he can have his time as well.
    Chairman Berman. Mr. Inglis for 6 minutes and 51 seconds.
    Mr. Inglis. Thank you, Mr. Chairman. There is a cloud of 
illegitimacy surrounding the Karzai government because of the 
elections. Is it possible to rehabilitate them, his leadership? 
And if so, how do you do that?
    Mr. Coll. I will take a quick pass at it. I am sure Alex 
has something to say. You can't sugarcoat this fraud. The 
allegations are very serious and they betray substantial 
investments of American blood and treasure in places like 
Helmand where the Marines have been over the last 15 months. It 
seems that great numbers of votes there were manufactured by 
the President, at least according to the U.N.'s data.
    Yes, it is possible to rehabilitate this process because 
there is a broad appetite among Afghans for their own reform 
process and it is possible to I think use American influence to 
bring all of the parties to that reform process. President 
Karzai, the opposition leader Abdullah, other unsuccessful 
candidates for President and the agenda for that reform process 
has to be ambitious. It has to include constitutional questions 
like the role of Parliament against the presidency, whether or 
not governors should be elected, whether or not political 
parties should be allowed to compete and should also include 
electoral reform.
    How do you prevent this from happening again? How do you 
strengthen the Afghan institutions that attempted to hold this 
election but were apparently betrayed by those who were 
criminally determined to steal it?
    Mr. Thier. I think we really have a two-part strategy of 
improving the accountability and performance of the Afghan 
Government. The first is a ``work with Karzai'' strategy and 
the second is a ``work around Karzai'' strategy. I think the 
work with Karzai strategy requires us to do a lot more to hold 
his government accountable. For instance, as a result of this 
election, obviously there are hundreds, if not thousands of 
people working for the Afghan Government who perpetrated this 
fraud. There has to be a demonstration of accountability in 
this process if Karzai wants to claim that these people did 
that of their own initiative, which is what he said. Then he 
has to be the one to stand up to make sure that there is 
accountability.
    I would extend that not only to the election but beyond 
that, allegations about his brother's involvement in the drug 
trade, allegations about other high level government officials. 
There needs to be a very serious approach to corruption. The 
work around Karzai strategy is both at the national level and 
subnational level. There are some very good ministers in 
Afghanistan. I know that you have been over there. You may have 
met with some of them. There are some people who are doing very 
good work, who have done a lot to deliver assistance, 
particularly the ministry of agriculture, rural rehabilitation 
and development.
    These are people who are committed. And we can continue to 
work with them intensively and in fact put more of our 
resources into their ministries to allow them to succeed. The 
final step of that is to work much more intensively at the 
subnational level. You have governors out there. You have 
elected provincial councils who will do much better if they 
have the capacity and resources to channel resources to their 
population, to cut out the bottleneck that exists in Kabul and 
to deliver resources at the local level. Just like in our own 
system, it is people at the local level who understand best 
what they need and how to get it done. And we need to do a lot 
more of that in Afghanistan if we want to be more effective at 
delivering assistance and cutting out some of the problems that 
have existed at the central government level.
    Mr. Inglis. Dr. Kagan, does it require a do-over of the 
election?
    Mr. Kagan. It doesn't require a do-over of the election 
necessarily. First we have to see what the actual result is and 
we are still waiting on the Afghans to tell us. And I think it 
is important that we respect the Afghan process. But we also--
frankly, the illegitimacy, or potential illegitimacy, of the 
election gives us also an opportunity, if we choose, to use it 
and if we develop an articulated clear political strategy to do 
so. Karzai knows that he has been weakened by all of this. He 
knows that he has to be very concerned about the question of 
American support for him. That it is not taken for granted and 
he knows, I believe, that he is unable to govern that country. 
It is not even clear to me that he can stay alive in that 
country without American support. In this context, that 
provides us with an opportunity to insist upon a series of 
fundamental reforms in the way the Afghan Government functions 
as my colleagues and others have described as part of a package 
in return for the aid and assistance that we give to the 
Government of Afghanistan.
    And I think we need to do that. And I think we really need 
to press the administration to explain what its political 
strategy is and how it intends to mitigate the negative 
consequences of this which I think it can and to gain the 
benefits that are potentially there. And if I could just add 
one point that is often lost in this discussion. The United 
States troops are not going into Afghanistan to kill people and 
blow things up. First of all, we don't need troops to do that. 
If you want to do that, we can do that from the air. The troops 
are going in to interact with local population to reassure 
Afghans of our commitment, to gain intelligence from them, but 
also to help them work through precisely these governance 
issues. And this is a role that American troops played in Iraq, 
it is a role that they have played in Afghanistan where they 
have been resourced adequately and given the mission and it is 
a role that they will play essentially in support of a larger 
political strategy that addresses this gap between the local 
people and their leaders and this government.
    Mr. Inglis. Does geography conspire against Afghanistan in 
the creation of a central government such that--it depends on 
where you are as to whether you need one. I wonder if my 
observation is correct. In other words, if you are in some 
remote valley, really you don't much need a central government 
if you have tribal leaders that can help adjudicate conflicts, 
why do you need a Federal courthouse? And, in fact, it is the 
legitimacy of that Federal courthouse may be questioned, 
especially if it comes from the metropolitan areas. So you end 
up with--or I like the idea of Federal courthouses in the 
United States. We have a wonderful country. I wonder if that is 
the case there.
    Chairman Berman. Our problem is we have less than 5 minutes 
to make this vote. My problem is, I don't want to miss votes. I 
want to ask another round of questions and I don't want to keep 
you here for another 30 minutes. So I am going to give up my 
round of questions. Would you give up the answer to your last 
point?
    Mr. Inglis. I would be happy to give up the answer.
    Chairman Berman. And thank you guys very much for coming. 
It has been very interesting. I think I do want to say for the 
record we made an earnest effort to get some respected figures 
who have a different view than the three of you, 
notwithstanding your different backgrounds and all that have on 
some of this and none of them could make it at this time. But 
we did make that effort and I just wanted the record to reflect 
that. And I think your testimony was great and I appreciate it 
very much. The hearing is adjourned.
    [Whereupon, at 1:03 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Green statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Burton statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Lee deg.__
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
